<html>
<title> - MARITIME SECURITY OPERATIONS WITHIN THE DEPARTMENT OF HOMELAND SECURITY</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
                  MARITIME SECURITY OPERATIONS WITHIN
                  THE DEPARTMENT OF HOMELAND SECURITY

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON INFRASTRUCTURE
                          AND BORDER SECURITY

                                 of the

                 SELECT COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 5, 2004

                               __________

                           Serial No. 108-47

                               __________

    Printed for the use of the Select Committee on Homeland Security


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________




                 U.S. GOVERNMENT PRINTING OFFICE

23-465                 WASHINGTON : 2005
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001



                 SELECT COMMITTEE ON HOMELAND SECURITY

                 Christopher Cox, California, Chairman

Jennifer Dunn, Washington            Jim Turner, Texas, Ranking Member
C.W. Bill Young, Florida             Bennie G. Thompson, Mississippi
Don Young, Alaska                    Loretta Sanchez, California
F. James Sensenbrenner, Jr.,         Edward J. Markey, Massachusetts
Wisconsin                            Norman D. Dicks, Washington
W.J. (Billy) Tauzin, Louisiana       Barney Frank, Massachusetts
David Dreier, California             Jane Harman, California
Duncan Hunter, California            Benjamin L. Cardin, Maryland
Harold Rogers, Kentucky              Louise McIntosh Slaughter, New 
Sherwood Boehlert, New York          York
Lamar S. Smith, Texas                Peter A. DeFazio, Oregon
Curt Weldon, Pennsylvania            Nita M. Lowey, New York
Christopher Shays, Connecticut       Robert E. Andrews, New Jersey
Porter J. Goss, Florida              Eleanor Holmes Norton, District of 
Dave Camp, Michigan                  Columbia
Lincoln Diaz-Balart, Florida         Zoe Lofgren, California
Bob Goodlatte, Virginia              Karen McCarthy, Missouri
Ernest J. Istook, Jr., Oklahoma      Sheila Jackson-Lee, Texas
Peter T. King, New York              Bill Pascrell, Jr., North Carolina
John Linder, Georgia                 Donna M. Christensen, U.S. Virgin 
John B. Shadegg, Arizona             Islands
Mark E. Souder, Indiana              Bob Etheridge, North Carolina
Mac Thornberry, Texas                Ken Lucas, Kentucky
Jim Gibbons, Nevada                  James R. Langevin, Rhode Island
Kay Granger, Texas                   Kendrick B. Meek, Florida
Pete Sessions, Texas
John E. Sweeney, New York

                      John Gannon, Chief of Staff

       Stephen DeVine, Deputy Staff Director and General Counsel

           Thomas Dilenge, Chief Counsel and Policy Director

               David H. Schanzer, Democrat Staff Director

             Mark T. Magee, Democrat Deputy Staff Director

                    Michael S. Twinchek, Chief Clerk

                                 ______

           Subcommittee on Infrastructure and Border Security

                     Dave Camp, Michigan, Chairman

Kay Granger, Texas, Vice Chairwoman  Loretta Sanchez, California
Jennifer Dunn, Washington            Edward J. Markey, Massachusetts
Don Young, Alaska                    Norman D. Dicks, Washington
Duncan Hunter, California            Barney Frank, Massachusetts
Lamar Smith, Texas                   Benjamin L. Cardin, Maryland
Lincoln Diaz-Balart, Florida         Louise McIntosh Slaughter, New 
Robert W. Goodlatte, Virginia        York
Ernest Istook, Oklahoma              Peter A. DeFazio, Oregon
John Shadegg, Arizona                Sheila Jackson-Lee, Texas
Mark Souder, Indiana                 Bill Pascrell, Jr., New Jersey
John Sweeney, New York               Jim Turner, Texas, Ex Officio
Christopher Cox, California, Ex 
Officio

                                  (II)




                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Dave Camp, a Representative in Congress From the 
  State of Michigan, and Chairman, Subcommittee on Infrastructure 
  and Border Security............................................    45
The Honorable Loretta Sanchez, a Representative in Congress From 
  the State of California, Ranking Member, Subcommittee on 
  Infrastructure and Border Security
  Oral Statement.................................................     2
  Prepared Statement.............................................     3
The Honorable Kay Granger, a Representative in Congress From the 
  State of Texas, and Vice Chairwoman, Subcommittee on 
  Infrastructure and Border Security.............................     1
The Honorable Christopher Cox, a Representative in Congress From 
  the State of California, and Chairman, Select Committee on 
  Homeland Committee
  Oral Statement.................................................    28
  Prepared Statement.............................................     4
The Honorable Jim Turner, a Representative in Congress From the 
  State of Texas, and Ranking Member, Select Committee on 
  Homeland Committee
  Oral Statement.................................................    25
  Prepared Statement.............................................     5
The Honorable Peter A. DeFazio, a Representative in Congress From 
  the State of Oregon............................................    35
The Honorable Norman D. Dicks, a Representative in Congress From 
  the State of Washington........................................    30
The Honorable Sheila Jackson-Lee, a Representative in Congress 
  From the State of Texas                                            49
The Honorable Edward J. Markey, a Representative in Congress From 
  the State of Massachusetts.....................................    45
The Honorable Louise McIntosh Slaughter, a Representative in 
  Congress From the State of New York............................    39
The Honorable Mark E. Souder, a Representative in Congress From 
  the State of Indiana...........................................    33

                               WITNESSES

Witnesses Prepared Statement.....................................     9
Mr. Jayson P. Ahern, Assistant Commissioner, Field Operations, 
  Bureau of Customs and Border Protection........................    25
Rear Admiral David S. Belz, Assistant Commandant for Operations, 
  U.S. Coast Guard, Department of Homeland Security..............     6
Mr. Tom Blank, Assistant Administrator for Policy, Transportation 
  Security Administration........................................    22
Mr. Charles E. Stallworth, II, Director, Air and Marine 
  Operations, Bureau of Immigration and Customs Enforcement......    21


      DEPARTMENT OF HOMELAND SECURITY MARITIME SECURITY OPERATIONS

                              ----------                              


                         Wednesday, May 5, 2004

                          House of Representatives,
                     Subcommittee on Infrastructure
                               and Border Security,
                     Select Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:40 p.m., in 
Room 210, Cannon House Office Building, Hon. Dave Camp 
[chairman of the subcommittee] and Hon. Kay Granger [acting 
chairwoman of the subcommittee] presiding.
    Present: Representatives Camp, Granger, Goodlatte, Shadegg, 
Souder, Cox, Sanchez, Markey, Dicks, Slaughter, DeFazio, 
Jackson-Lee, and Turner.
    Ms. Granger. [Presiding.] The Subcommittee on 
Infrastructure and Border Security hearing will come to order. 
Today's hearing is on maritime security operations within the 
Department of Homeland Security.
    The purpose of today's hearing is to examine maritime 
security operations within the Department of Homeland Security, 
with a focus on how DHS agencies--including the U.S. Coast 
Guard, Bureau of Customs and Border Protection, Bureau of 
Immigration and Customs Enforcement and the Transportation 
Security Administration--are working together to avoid 
duplicative efforts and create greater efficiencies in 
providing maritime and port security.
    The subcommittee will hear from: Rear Admiral David H. 
Belz, the assistant commandant for operations with the U.S. 
Coast Guard; Mr. Jayson Ahern, the director of field operations 
with the Bureau of Customs and Border Protection; Mr. Charles 
Stallworth, the director of the Office of Air and Marine 
Operations for the Bureau of Immigration and Customs 
Enforcement; and Mr. Tom Blank, the assistant administrator for 
policy at the Transportation Security Administration.
    I thank you all for your participation. The chair would 
like to remind members that we have a full panel of qualified 
witnesses. And in order to allow sufficient time for their 
testimony and questions, the chair will urge members to waive 
opening statements or to give short statements and to submit 
their full opening statements for the record.
    The record will remain open for 10 days after the close of 
the hearing. And members are advised that they will receive an 
additional three minutes during the question time if they waive 
their opening statement.
    The chair will begin with a short opening statement.
    The maritime arena encompasses over 95,000 miles of 
shoreline and navigable waterways, 3.4 million square miles of 
exclusive economic zones, over 350 seaports, 3,700 cargo and 
passenger terminals and over 6 million cargo containers which 
enter U.S. ports each year. Over 95 percent of overseas freight 
enters through U.S. seaports. The loss of a strategic port 
could be disastrous to the U.S. economy.
    The Department of Homeland Security released its strategic 
plan on February 24, 2004, which identifies broad objectives to 
guide the development of the department in the coming years. 
The DHS strategic approach is to identify and intercept threats 
before they reach U.S. shores by conducting layered, multi-
agency maritime security operations.
    Under the strategy, a key component for maritime security 
is developing better maritime domain awareness. The Coast 
Guard, CBP, ICE and TSA each have unique intelligence and 
targeting capabilities. But currently, it is not clear how 
information is shared or utilized in a complementary manner.
    While progress has been made to improve maritime security 
coordination, reports before Congress by the General Accounting 
Office last September highlighted the fact that the Coast Guard 
and TSA in particular may be duplicating their efforts in 
collecting intelligence on incoming vessels. Integration and 
coordination of the maritime security mission will help DHS 
operational agencies mature into a cohesive organization that 
effectively enhances homeland security while reducing overlap 
and duplication of effort.
    Specifically, DHS should focus on the integration and 
coordination of the surveillance and interdiction functions 
among ICE, CBP and Coast Guard, develop a consolidated 
acquisition and maintenance program for air and marine assets 
that includes the modernization needs of each service and 
integrate access to date and targeting information. This 
hearing will provide an opportunity for the committee to 
seriously look for ways to improve maritime security by 
strengthening the relationship between the Coast Guard, ICE, 
CBP and TSA.
    Again, I would like to thank our witnesses for being here. 
And I will conclude my remarks and enter my full statement for 
the record.
    The chair now recognizes Ms. Sanchez, the ranking member of 
the Subcommittee on Infrastructure and Border Security, for any 
statement she may wish to make.
    Ms. Sanchez. Thank you, Madam Chairman. And I would like to 
thank our witnesses for appearing before us today.
    I am going to apologize ahead of time because I have a 
markup going on in one of my half committees. And I probably 
will be running in and out. But we have various members--
seasoned members--here who can successfully question, I am 
sure, our witnesses.
    In my estimation, there is not one part of our nation's 
critical infrastructure that is more important than our 
nation's ports--important to our economy and also very 
vulnerable. My district is very close to the Port of Los 
Angeles/Long Beach, the third largest port in the entire world.
    And we had a lockout about a year-and-a-half ago now at 
Christmas which cost us about $2 billion a day for about 10 
days. That was $20 billion. A significant portion obviously of 
that commercial activity in California, but extended all the 
way across the United States.
    And it really taught us that our ports are really made to 
try to move cargo as quickly as possible, but that we have a 
lot of security vulnerabilities at our ports. With that in 
mind, Ranking Member Turner, myself and several other members 
of this committee will introduce a comprehensive port security 
bill next week.
    And the ideas in that bill will be from low tech to high 
tech for our United States ports and also for our cargo that is 
coming from international ports to our land. Also, the Coast 
Guard is our lead agency in port and maritime security. And I 
have a lot of questions to ask about that today.
    Our bill authorizes many Coast Guard programs, including 
port security grants, a long-range vessel tracking program, 
faster implementation of deep water programs, the automated 
identification system and upping the end strength of the Coast 
Guard to 50,000 people. I am very proud of that piece of 
legislation. And I know that if it becomes law, it will greatly 
increase the security of our ports and, by extension, our 
national security.
    Each of the agencies represented here are important. They 
have an important role to play in our ports and in our national 
waters. A lot of our ports are still lacking the most basic 
security measures: personnel access restrictions, 
identification cards, et cetera.
    We also need to secure the cargo that is coming within our 
system. We have to improve the Container Security Initiative. I 
think it is a good idea, but unless we devote the resources, 
especially to personnel, we probably will not get the job done 
right.
    We also intend to strengthen Customs-Trade Partnership 
Against Terrorism, or C-TPAT. And currently, there are 3,100 
companies benefiting from that. But only 248 of those have gone 
through the real on-site, hands-on verification inspections to 
ensure that security is as good as it says it is on paper. I 
think that is an unacceptable level.
    There are many, many concerns I have. So I am really 
looking forward to this hearing. And I will put the rest of my 
comments into the record, Madam Chairman, so that we can move 
on.
    Ms. Granger. Thank you very much.
    Representative Souder, do you have an opening statement? 
Seeing no requests for time, we will proceed.
    I would again like to thank our witnesses for being here. 
The Department of Homeland Security submitted one written 
statement to describe the maritime missions of the four 
agencies represented. Each witness will present an oral 
statement further detailing their role in maritime security and 
highlighting key initiatives.
    Rear Admiral Belz, we will begin with your opening 
statement. We will ask you to briefly summarize in five minutes 
your statement.

      Prepared Opening Statement of the Honorable Loretta Sanchez

    Thank you, Mr. Chairman, and I'd like to thank our witnesses for 
appearing here today. In my estimation, there is not one part of our 
nation's critical infrastructure that is as vital to our economy, and 
at the same time so vulnerable, as our nation's ports.
    A successful attack on a U.S. port could not only cause immediate 
loss oflife, but also severe economic damage. My district is very close 
to the port of LA--Long Beach. The lockout of the longshoremen that 
occurred in the fall of 2002 shut down that port and 28 other ports on 
the West Coast for 11 days. It cost the U.S. economy over $1 billion 
per day. The port system in this country was built with maximum 
openness to ensure efficient moving of cargo, but there was virtually 
no security. We have a long way to go and we need to get there fast.
    With that in mind, Ranking Member Turner, myself, and several other 
members of the Committee will introduce a comprehensive port security 
bill next week. The ideas presented in the bill range from the low-tech 
to high-tech, from U.S. ports to those overseas.
    Of course, the Coast Guard is our lead agency in port and maritime 
security, and I have many questions for them today too. Our bill 
authorizes many Coast Guard programs, including port security grants, a 
long-range vessel tracking system, faster implementation of the 
Deepwater Program, the Automated Identification System, and upping the 
end strength to 50,000 people.
    I am very proud of this legislation. I know that if it becomes law, 
it will greatly increase the security of our ports, and by extension, 
the security of the entire country. Each of the agencies represented 
here has an important role to play in securing our ports, and our 
national waters. Many of our ports are still lacking the most basic 
security measures, such as the installation of fencing and personnel 
access restrictions at the ports themselves.
    Next, we must secure cargo within the shipping system. We must 
improve the Container Security Initiative, a program designed to 
identify and inspect high-risk cargo while it is still at a foreign 
port. This program might be a good idea, but it will be ineffective 
unless we provide the resources, especially personnel, to do the job 
right.
    We also intend to strengthen the Customs Trade Partnership Against 
Terrorism by requiring full inspections ofthe security practices ofthe 
participants. Currently, there are 3100 companies benefiting from 
CTPAT. Only 248 ofthose have gone through real onsite, hands-on 
verification inspections to insure their security is as good as it says 
it is on paper. This is unacceptable.
    Another area of concern is that we still have not completed the 
Maritime Intelligence Plan or the National Maritime Transportation 
Security Plan required by the Maritime Transportation Security Act. I 
would like to know who is responsible within the agency for development 
of these plans. One aspect of the Maritime Transportation Security Plan 
that I find extremely important is a plan to re-establish cargo flows 
in the event of an attack or other disaster at a US port.
    Re-routing cargo will be an extremely difficult task, and it is 
important that DHS develops a robust. contingency plan in advance. We 
cannot afford to be caught flatfooted. A ``shut everything down'' 
response similar to what happened to aviation and our borders after 9-
11 would be economically devastating.
    Besides port security, another purpose ofthe hearing is to examine 
the various maritime assets of the agencies here before us. We want to 
make sure that these agencies are complimenting each other are not 
duplicating efforts. I would also like to talk about what kind of 
coordination you have with local law enforcement agencies.
    We have a lot of ground to cover here. I thank you all for being 
here and I look forward to hearing trom all of you on these issues.
    Thank you, Mr. Chairman.

        Prepared Opening State of the Honorable Christopher Cox

    Let me begin by commending Chairman Camp for holding this hearing 
on maritime security operations, a high-priority issue in the 
Department of Homeland Security. I also would like to welcome and thank 
this distinguished panel for appearing before us today. You represent 
the many operators within the Department of Homeland Security, who 
courageously defend our nation everyday at great personal risk. This 
point was highlighted in Iraq last week by the death of Coast Guard 
Petty Officer Nathan Bruckenthal, who was deployed with Coast Guard 
Forces to the Persian Gulf. Petty Officer Bruckenthal was killed in an 
explosion, along with two U.S. Navy Sailors, when they intercepted a 
terrorist suicide boat heading for an oil terminal in the Northern 
Arabian Gulf. We honor these brave young men today, along with all the 
men and women of the Department of Homeland Security who are on the 
front lines in the Global War on Terror.
    Today, we examine one of DHS's critical missions--maritime 
security. Specifically, we will examine how the maritime security 
qperations are being performed by the different agencies within DHS. 
The Coast Guard, the Bureau of Customs and Border Protection (CBP), the 
Bureau of Immigration and Customs Enforcement (ICE), and the 
Transportation Security Administration (TSA) each have critical roles 
to play to ensure that America's 95,000 miles of coastline and 361 
major ports are secure from terrorism. The Department has made 
significant progress in improving maritime security since September 
11th. But, we all know, much remains to be done.
    When the Coast Guard, the U.S. Customs Service, and the U.S. Border 
Patrol were transferred to the Department of Homeland Security on March 
1, 2003, they brought with them three distinct cultures, each with a 
rich history of securing our borders and ports against such threats as 
contraband smuggling and illegal narcotics and immigration. These 
agencies must now work together in the new mission to our ports and 
waterways against terrorism. Each of these agencies brings invaluable 
expenence and expertise to the Department, and the Department must 
harness this unique expertise as it implements a cohesive, integrated 
maritime security strategy. In moving forward, the Department must 
ensure that it is breaking down--not creating any new--stovepipes. The 
tragic events of September 11th highlighted the overriding need to 
``connect the dots'' to detect and deter terrorism in maritime 
security. Terrorists, as we know from painful experience, will look to 
exploit any gaps in our systems of defense. Our needs an integrated and 
coordinated maritime security effort, which is precisely why the 
Homeland Security Act transferred the agencies represented here today 
to the new Department.
    Currently, the Coast Guard, CBP, and ICE maintain and operate three 
separate fleets of ships, boats, and aircraft. Today, these fleets 
operate and perform the maritime security mission as separate entities 
within the Department and maintain distinct chains-of-command, 
operational planning, and performance measures.
    In addition, the Coast Guard, CBP's Border Patrol, and ICE Air and 
Marine Operations maintain three separate modernization, acquisition 
and maintenance plans for their air and marine assets. The Department 
should examine the separate air and marine asset modernization needs 
and plans of the Coast Guard, CBP, and ICE, and consider ways to 
consolidate efforts where missions and needs overlap. An integrated 
modernization program could result in cost-savings to the government as 
well as sharper focus on the security mission. It also could enable 
Coast Guard, ICE, and CBP air, surveillance and maritime asset 
operators to achieve other advantages and efficiencies, such as joint 
training of employees, shared repair and maintenance facilities, and 
increased communications interoperability.
    Mr. Stallworth: Should ICE aircraft be able to land at a Coast 
Guard Air Station for repair? Ahern: should the ICE Air and Marine 
Operations Center be able to tell where all CBP aircraft are operating? 
A Coast Guard aircraft should be able to engage in secure 
communications with the ICE patrol boat on the waters below.
    Another critical component of the overall maritime security mission 
is port security. The U.S. has an $11 trillion economy and much of that 
is driven by legitimate commerce traveling through U.S. ports. A 
terrorist attack against a U.S. port would have far reaching impact. 
Currently, there are three primary Federal agencies active in providing 
security and enforcing Federal law at ports around the Nation--Coast 
Guard, CBP and TSA. The Federal responsibilities include securing the 
water and land perimeters of the port, targeting and inspection of 
passengers and cargo entering the port, and intelligence gathering and 
information sharing among Federal, state and local authorities. It is 
imperative, in the event of an attack, that there be seamless 
coordination of efforts among these agencies.
    In the Fiscal Year 2005 budget, the President has requested nearly 
$1.9 billion for DHS-wide port security efforts. That is on top of the 
more than $500 million that we have distributed through the Port 
Security Grant Program to assist the private sector with securing its 
own facilities and infrastructures. But the private sector, too, needs 
to share in the responsibility of securing our Nation's seaports, 
because the Federal government cannot and should not bear this enormous 
burden on its own.
    I look forward to hearing from our witnesses today and, again, 
thanks them for taking the time to be with us this afternoon.

             Prepared Statement of the Honorable Jim Turner

    Thank you, Chairman Camp.
    I welcome our witnesses. Thank you for appearing before us today.
    Since September 11, 2001 many positive steps have been taken to 
improve port and cargo security. For example, to address the security 
weaknesses within our maritime transportation system, Congress passed 
the Maritime Transportation Security Act. This comprehensive 
legislation requires the development of various security measures to 
reduce the vulnerability of our ports to terrorist attack. 
Implementation of the legislation is underway.
    In addition, the Department of Homeland Security has taken steps to 
improve the security of vessels and cargo that arrive at our ports 
every day. The Coast Guard requires vessels to submit cargo and crew 
information 96 hours before arrival at a U.S. port, and escorts high 
risk vessels as they transit our harbors. Customs and Border Protection 
officers are stationed at overseas ports to identify high risk cargo 
before it is shipped to the United States. The Transportation Security 
Administration is testing various technologies with the goal of 
developing ``best practices for cargo containers.
    Nonetheless, we are still facing serious security gaps in port and 
cargo security. Democrats on this Committee will issue a report which 
details these security gaps, and plan to introduce legislation shortly 
to better secure our maritime transportation system.
    Right now cargo containers do not have strong tamper proof locks 
and seals. Terrorists could exploit security this weakness to bring a 
weapon of mass destruction into the country in a container. Yet, no 
security standards for container locks or seals exist. The Department 
of Homeland Security, however, has not set security standards for 
container locks and seals. Our bill will intend to require the 
Department to set security standards for cargo containers.
    Containers are also vulnerable to sabotage as they are shipped 
through the global supply chain. The Bureau of Customs and Border 
Protection has partnered with industry through the ``C-TPAT'' 
(pronounced C-TEE-PAT) program to improve security. However--given the 
way the program is currently being implemented--the majority of 
participating companies are enjoying the benefits of reduced security 
inspections without any assurance that security has actually been 
improved. The security practices of these companies must be verified to 
ensure that industry is keeping its end of the bargain. Our legislation 
will require a deadline for DHS to complete such the security 
verifications of C-TPAT companies.
    Our national security requires that we screen every cargo 
containers that comes into the United States for nuclear or 
radiological materials. This is not happening today. Radiation portal 
monitors are being deployed at our ports far too slowly. I have called 
on the Department to expedite this program and would like to hear what 
the current status is on the deployment of portal monitors at ports. 
Our bill will set a deadline for the installation of portal monitors at 
our seaports.
    Many ports are in the process of complying with the security 
measures required by the Maritime Transportation Security Act. These 
measures will enhance security at our nation's 361 seaports. However, 
they are costly to industry, and represent an unfunded mandate on the 
private sector. The Coast Guard estimates that ports will spend about 
$1.1 billion in the first year alone to comply with MTSA regulations. 
Our bill will authorize a total of $537 million for port security 
grants for next fiscal year, $491 million over the Administration's 
request, to ensure port operators receive the support they need to 
improve their security.
    The security of our nation's ports also rests, in part, on the 
ability of the U.S. Coast Guard to operate modem ships and aircraft 
that can share critical information with each other, and other offices 
of the Department. The ``Deepwater'' program aims to modernize the 
Coast Guard's fleet, and improve its ability to share maritime security 
information. However, at the current rate, it will take another 22 
years to complete the program. Our legislation would accelerate the 
completion to 10 years, giving the Coast Guard the tools it needs to 
conduct its vital maritime homeland security missions.
    Overall, Mr. Chairman, while steps have been taken to improve our 
maritime security, more must be done. I look forward to hearing from 
our witnesses how Congress can help them do this job of protecting our 
seaports from a possible terrorist attack.
    Thank you.

 STATEMENT OF REAR ADMIRAL DAVID S. BELZ, ASSISTANT COMMANDANT 
                FOR OPERATIONS, U.S. COAST GUARD

    Admiral Belz. Thank you, Madam Chairman.
    Good afternoon. And I appreciate the opportunity to be 
here, distinguished members of the committee.
    I would like to thank you for the opportunity to discuss 
maritime security operations within the Department of Homeland 
Security. I am pleased to be joined here by my colleagues: Jay 
Ahern at the CBP, Charlie Stallworth of ICE and Mr. Tom Blank 
of TSA. It is a pleasure to be up here testifying with them.
    The Coast Guard strongly engages in the department's ``one 
team, one fight'' concept. We have many partnerships with other 
government agencies in the performance of our 11th statutory 
mission. Integration of all agencies involved in protecting the 
homeland to promote operational efficiencies and improve 
operational effectiveness is a basic tenet describing why the 
Department of Homeland Security was established.
    These partnerships act as a force multiplier so that 
together we can achieve more than we could as disparate 
components. We will continue to be committed to working closely 
with our partner agencies. And we truly believe that the 
standup of one department responsible for homeland security has 
made America more secure today.
    Events erupting in Haiti a few months ago provide a solid 
example of the leaps forward all of our DHS agencies are taking 
with regard to interagency cooperation. Under the direction of 
Secretary Ridge, the Homeland Security Task Force Southeast was 
stood up as part of Operation Able Sentry.
    The team was comprised of many DHS agencies, including: 
Immigration and Customs Enforcement, Customs and Border 
Protection, the Federal Emergency Management Agency, as well as 
our own service. The task force was chartered by the secretary 
to plan, prepare and conduct migrant interdiction operations in 
the vicinity of Haiti due to the escalation of violence in that 
country and the threat of a mass exodus of undocumented 
migrants to the United States.
    With America's awareness, prevention, protection, response 
and recovery capabilities now under one roof in one department, 
the level of communication and cooperation among the agencies 
within our department is stronger than ever, even though many 
of us had previously worked together before there was a DHS.
    However, with a new department as our home, the component 
agencies are moving swiftly together in a variety of venues. 
Under the department's leadership, TSA, Customs and Border 
Protection and the Coast Guard are working together to support 
efforts to implement the Maritime Transportation Security Act 
through interagency working groups addressing cargo security 
standards, port security assessment, international port 
security and the development of the National Maritime 
Transportation Security Plan.
    Given our unique blend of authorities, capabilities, 
competencies and partnerships, both domestic and international, 
the Coast Guard, in partnership with CBP, ICE and TSA, is 
working on the development and implementation of the National 
Maritime Transportation Security Plan as a feed into the 
overarching, national plan being developed by TSA.
    The Coast Guard's maritime strategy for homeland security 
supports the President's national security strategy, the 
national strategy for homeland security and the Homeland 
Security Presidential Directive 7 and is responsive to near-
term needs, while maintaining a strategic outlook on the 
threats and opportunities of the future.
    This maritime strategy is built upon a layered defense, a 
time-honored means to enhance security in the U.S. ports and 
waterways, while concurrently facilitating the smooth flow of 
commerce. The collective result of the component agencies' of 
DHS efforts is aimed at managing and reducing maritime security 
risk.
    Today, there is a developing interagency and joint surface 
effort to develop a comprehensive national maritime domain 
awareness or MDA plan and system architecture. The core of our 
collective MDA efforts revolve around the development and 
dissemination of accurate information, intelligence and the 
targeting of vessels, cargoes, crews and passengers, extending 
this well beyond our traditional maritime boundaries.
    All DHS components are working hard to provide an effective 
layered defense through collaborative efforts with 
international partners to counter and manage security risks 
long before they reach a U.S. port.
    In regards to law enforcement, the Coast Guard has 
longstanding successful working relationships with all federal 
law enforcement agencies and additionally is now a member of 
the national intelligence community. The Coast Guard 
coordinates closely with Customs and Border Protection, 
Immigration and Customs Enforcement, the Drug Enforcement 
Agency and the joint interagency task forces in planning and 
the conduct of counter-drug law enforcement operations.
    One recent example highlights this heightened cooperation. 
Just 2 weeks ago, a Customs and Border Protection-ICE maritime 
patrol aircraft spotted a go-fast in the vicinity of Nicaragua. 
After receiving word from the aircraft, two Coast Guard cutters 
pursued the boat into Nicaraguan waters under the U.S.-
Nicaraguan bilateral drug law enforcement agreement.
    The Coast Guard armed helicopter was embarked on one of the 
cutters, disabled the vessel and the Coast Guard recovered over 
2,000 pounds of cocaine. That could easily have been a 
different kind of target.
    Within the intelligence community, the Coast Guard is 
working closely with the interagencies sitting here today to 
ensure that intelligence products generated by the Coast Guard 
are shared rapidly and accurately throughout the federal 
government. That movement is crisp today. But we need to work 
additionally to make the process flawless.
    Furthermore, beyond sharing, the Coast Guard gets guidance 
and direction from the Information, Analysis and Infrastructure 
Protection Directorate at DHS. And we work closely with the 
National Response Center to share threat information and 
receive reports of suspicious activities from the maritime 
industry and other maritime stakeholders.
    U.S. Coast Guard and Customs and Border Protection have 
exchanged liaison officers at the National Targeting Center and 
the National Maritime Intelligence Center. This exchange has 
significantly enhanced information sharing as it relates to 
cargo tracking and high-interest vessel tracking.
    Additionally, the Coast Guard functions as the information 
sharing and analysis center for the commercial maritime 
industry in accordance with PDD 63 and has been doing so since 
February 2003. Certain economies of scale and enhanced 
operational effectiveness can and are being achieved through 
the identification of overlapping DHS missionaries and 
coordinated acquisition and/or application of operational 
assets.
    While the state of integration we have achieved to date 
clearly cannot be characterized as complete, the ongoing 
efforts to identify and exploit opportunities for integration 
are diligent and promising. Some current initiatives include: 
the Department of Homeland Security's Aviation Management 
Council; the department's Boat Commodities Council; and the 
Joint Requirements Council.
    Benefits of an integrated DHS acquisition strategy have 
already been realized. For example, CDP recently acquired some 
response boats--small--through a larger Coast Guard purchase. 
Additionally, DHS has recently decided to utilize the Coast 
Guard's aviation logistics management information system 
departmentwide in order to provide a framework to gather, 
represent, process and distribute aviation information.
    We have also learned from our partners here at the table. 
As we speak, the Coast Guard is examining certain boat 
maintenance concepts my colleagues here at the table have 
instituted at Customs Air and Marine.
    And we are examining relocation of certain national 
response center activities through TSA's Transportation 
Security Operations Center. All of us at this table have 
participated in a DHS-led examination of our individual use of 
force policies for synchronization. And the Coast Guard itself 
is making some adjustments where appropriate.
    Madam Chairman, I can truly report to you that the Coast 
Guard is fully aligned with the department's maritime goals and 
objectives. The Coast Guard will continue to work with our 
partners at this table and with others outside DHS to 
strengthen already solid agency partnerships, providing 
increased effectiveness and efficiencies in accomplishing DHS 
operations and the President's national strategy for homeland 
security.
    No single maritime stakeholder--whether it is government, 
our government, industry or the private sector--can do this 
alone. We clearly understand that.
    We must continue to work together to improve the security 
for our nation, for the maritime sector that is its economic 
lifeblood and for the citizens of our country who deserve and 
desire protection from terrorism without unreasonable 
infringement on their freedoms guaranteed in the Constitution.
    Thank you very much for this opportunity to provide 
testimony. I would be pleased to answer any questions you may 
have.

Prepared Statement of Rear Admiral David S. Belz, Jayson Ahern, Charles 
                      E. Stallworth, and Tom Blank

    Good afternoon Mr. Chairman and distinguished Members of the 
Committee. It is our pleasure to be here today to testify on maritime 
security operations within the Department of Homeland Security.
    Prior to the attacks of September 11, 2001, the primary focus 
within the maritime domain had been on safety, the environment, vessel 
traffic management, and law enforcement. Most national and 
international efforts revolved around the safe and efficient movement 
of waterborne commerce, the interdiction of narcotics and illegal 
migrants, and trade compliance. In the post September 11, 2001 era, we 
recognize that any maritime conveyance could transport or constitute a 
security threat. In this new environment, components of DHS involved in 
maritime security have added to their existing efforts by deploying 
resources to identify such threats, deter and/or prevent attacks, 
respond, and recover from any maritime security incidents.

    The challenge is significant:
        <bullet> Over 95% of overseas trade enters through U.S. 
        seaports;
        <bullet> Our seaports account for 2 billion tons and $800 
        billion of domestic and international freight each year;
        <bullet> Each year approximately 9 million sea containers enter 
        the U.S. via our seaports;
        <bullet> 26,000 miles of commercially navigable waterways 
        serving 361 U.S. ports;
        <bullet> Strategic military value of many ports and waterways;
        <bullet> Seaborne shipment of approximately 3.3 billion barrels 
        of oil each year;
        <bullet> 6 million cruise ship passengers travel each year from 
        U.S. ports;
        <bullet> Ferry systems transport 180 million passengers 
        annually;
        <bullet> Waterways support 110,000 commercial fishing vessels, 
        contributing $111 billion to state economies;
        <bullet> 78 million Americans engaged in recreational boating;
        <bullet> Some 8,100 foreign vessels making 50,000 U.S. port 
        calls each year; and
        <bullet> Domestic and international trade is expected to double 
        in next 20 years.
        <bullet> Existing maritime smuggling networks can facilitate 
        the illicit movement of people and equipment into the U.S., 
        particularly as legal points of entry are hardened.
    While this Committee certainly needs no reminder, it is plainly 
evident that a terrorist incident against our marine transportation 
system could have a disastrous impact on global shipping, international 
trade, and the world economy.
    The world's oceans are global thoroughfares. A cooperative 
international approach involving partnerships of nations, navies, coast 
guards, law-enforcement agencies, and commercial shipping interests is 
essential--with all parties acting collaboratively to confront broadly 
defined threats to our common and interdependent maritime security. The 
Department of Homeland Security (DHS) recently marked its first 
anniversary and we are happy to report that operating with other 
federal agencies sharing a common DHS mission perspective provides new 
benefits to our nation's security daily.
    We are committed to working with our partner agencies as one team 
engaged in one fight, and truly believe having one Department 
responsible for homeland security has made America more secure today. 
Events in Haiti a few months ago provide an example of the leaps 
forward we are taking with regard to interagency cooperation. Under the 
direction of the Secretary of Homeland Security, the Homeland Security 
Task Force--Southeast was stood-up as part of OPERATION ABLE SENTRY. 
The Coast Guard (CG) led task force was comprised of many agencies 
chartered to plan, prepare, and conduct migrant interdiction operations 
in the vicinity of Haiti due to the escalation of violence in that 
country and the threat of a mass exodus of undocumented migrants. 
Within the first days of interdiction operations, the task force 
demonstrated impressive agility and synergy:
        <bullet> CG cutters, with Citizenship and Immigration Service 
        (CIS) asylum pre-screening officers and interpreters aboard, 
        interdicted 18 Haitian vessels with 1,076 undocumented 
        migrants;
        <bullet> CG and Immigration and Customs Enforcement (ICE) Air 
        and Marine Operations (AMO) aircraft patrolled the skies 
        throughout the operating area; and CG, ICE, and Customs and 
        Border Protection (CBP) conducted coordinated patrols off the 
        Florida coast;
        <bullet> CG and ICE conducted a coordinated boarding of a boat 
        suspected of being hijacked off the coast of Miami; and
        <bullet> Federal Emergency Management Agency (FEMA) also 
        deployed three Information and Planning Specialists to the task 
        force in support of contingency planning.
    With our federal government's Awareness, Prevention, Protection, 
Response and Recovery capabilities now under one roof, in one 
department, the level of communication and cooperation among the sister 
agencies of CG, TSA, ICE and CBP is stronger than ever. Under DHS and 
BTS leadership, CBP, TSA and CG are working together to support efforts 
to implement the Maritime Transportation Security Act (MTSA) through 
interagency working groups addressing cargo security standards, port 
security assessments, international port security and the development 
of the National Maritime Security Plan.
    Additionally, the sister agencies within DHS are forging strong 
relationships in regards to acquisition management. DHS has established 
a Strategic Sourcing Group and a series of commodity councils. The 
purpose of the Strategic Sourcing Group is to assist in the successful 
development, deployment and maintenance of sourcing strategies to 
enhance DHS acquisition system and ensure commodities are acquired in 
the most efficient and effective manner. The purpose of each council is 
to develop long-term strategies for acquiring a commodity across the 
department. Some councils that exist include Weapons & Ammunition, 
Boats, Aviation, Training, Facilities, and Information Technology.

Maritime Strategy for Homeland Security
    Since 9/11, Secretary Ridge and all DHS components have worked hard 
to achieve DHS's strategic goals of Awareness, Prevention, Protection, 
Response and Recovery. These strategy elements guide all that we do and 
likewise represent key pillars of the maritime homeland security 
strategy:

------------------------------------------------------------------------
                                        Maritime Strategy for Homeland
         DHS Strategic Goal                        Security
------------------------------------------------------------------------
<bullet> Awareness                   Enhance Maritime Domain Awareness
                                      (MDA)
------------------------------------------------------------------------
<bullet> Prevention                  Build and administer an effective
                                      maritime security regime--both
                                      domestically and internationally
------------------------------------------------------------------------
<bullet> Protection                  Increase military and civil
                                      operational presence in ports,
                                      coastal areas, and beyond--
                                      leverage State, Local and Private
                                      Sector assets as well
------------------------------------------------------------------------
<bullet> Response                    Improve our response posture in the
                                      event a security incident occurs
------------------------------------------------------------------------
<bullet> Recovery                    Lead efforts to restore services
                                      after acts of terrorism, natural
                                      disasters or other
                                       emergencies
------------------------------------------------------------------------

    DHS, pursuant to HSPD-7, is in the process of developing a National 
Critical Infrastructure Plan that will identify and prioritize United 
States critical infrastructure and key resources and to protect them 
from terrorist attacks. This plan will be comprised of Sector Specific 
Plans (SSPs), and TSA has been assigned primary responsibility for 
developing the transportation specific SSP. The Transportation SSP will 
discuss how federal and private-sector stakeholders will communicate 
and work together; how important assets in the transportation sector 
will be identified, assessed, and prioritized; how protective programs 
will be developed; how progress in reducing risk will be measured; and 
how R&D will be prioritized in the sector. In the Transportation 
Sector, the SSP will further these efforts currently underway and help 
ensure that they are systematic, complete, and consistent with the 
efforts in the other 12 sectors.
    In developing the transportation SSP, TSA is working under BTS 
guidance and with partners in the U.S. Coast Guard, other BTS component 
agencies and the Department of Transportation (DOT) and its modal 
administrations. DHS will build on the foundation of the SSP to provide 
overall operational planning guidance on transportation security. The 
expanded SSP will ensure that modal security plans are integrated into 
an effective concept of operations for management of the transportation 
sector's security.
    Given its unique blend of authorities, capabilities, competencies 
and partnerships (domestic and international), the CG has been charged 
with taking the lead on the development and implementation of a 
comprehensive Maritime Strategy for Homeland Security. The CG's 
Maritime Strategy for Homeland Security supports the President's 
National Security Strategy of the United States of America, the 
National Strategy for Homeland Security, and the Homeland Security 
Presidential Directive 7 (HSPD-7) and is responsive to near-term needs 
while maintaining a strategic outlook on the threats and opportunities 
of the future. The maritime strategy is built upon a layered defense; a 
time-proven means to enhance security in U.S. ports and waterways while 
concurrently facilitating the smooth flow of commerce. The collective 
result of our efforts is aimed at managing and reducing maritime 
security risks. 
[GRAPHIC] [TIFF OMITTED] 23465.001

    Below is an update on the Department's recent accomplishments in 
pursuit of each element of the maritime strategy with a particular 
focus on the joint and individual efforts of the CG, TSA ICE/AMO and 
CBP.

Awareness--Enhance Maritime Domain Awareness (MDA)
    The core of our MDA efforts revolve around the development and 
employment of accurate information, intelligence, and targeting of 
vessels, cargo, crews and passengers--and extending this well beyond 
our traditional maritime boundaries. All DHS components are working 
hard to provide an effectively layered defense through collaborative 
efforts with our international partners to counter and manage security 
risks long before they reach a U.S. port--when effectively deploying 
countermeasures becomes more difficult.
    The goal is to know the difference between friend and foe, so that 
legitimate commerce can move through our coastal and port areas 
unimpeded while we interdict contraband cargo and illegal activities of 
all types at sea before it becomes a threat on our shores. The key to 
achieving this comprehensive domain awareness is our ability as a 
department to obtain, synthesize and analyze the context around the 
movement of goods and people. We are taking an interagency approach, 
leveraging information technology, multiple information sources and 
actively involving the private sector. Our ability to achieve better 
MDA will allow us to better focus our protection and response efforts 
on those trade transactions, individuals, and activities of interest. A 
synopsis of our collective efforts is provided below:
        <bullet> The CG is leading the interagency and joint Service 
        effort to develop a comprehensive national MDA plan and system 
        architecture.
        <bullet> As directed by MTSA, the CG established an 
        International Port Security Program (IPSP) that is currently 
        working in concert with CBP, TSA and other Federal agencies to 
        identify foreign ports identified as posing a potential 
        security risk to international maritime transportation. TSA and 
        CBP have provided extensive assistance in developing this 
        program by sharing lessons learned and best practices from 
        TSA's Civil Aviation Security Liaison Officer (CASLO) program 
        and CBP's Container Security Initiative. The IPSP will begin 
        visiting selected foreign ports in July 2004 to measure the 
        degree of rigor with which foreign countries are administering 
        the International Maritime Organization's (IMO) International 
        Ship & Port Facility Security Code (ISPS).
        <bullet> The CG is researching technologies and systems that 
        are able to track vessels entering, departing or transiting 
        U.S. waters and track vessels bound for the U.S. from overseas 
        locations. The CG is currently working with IMO to develop 
        functional and technical requirements for long-range tracking 
        out to 2,000 nautical miles (approximate distance from shore a 
        vessel owner must transmit their 96-hour notice of arrival, 
        based on typical speed of advance). The U.S. will discuss and 
        attempt to forward an amendment that has been proposed to IMO 
        for this initiative in committee meetings over the next two 
        months.
        <bullet> The CG is establishing a network for receiving and 
        distributing Automatic Identification System (AIS) reports 
        (position, course, speed, cargo, etc.) from ships using 
        existing Vessel Traffic Services in nine of our nation's ports, 
        waterways, and coastal areas. This initiative will progress to 
        the other strategically significant U.S. seaports, and 
        ultimately extend to nationwide coverage.
        <bullet> The CG Intelligence Coordination Center, co-located 
        with the Office of Naval Intelligence at the National Maritime 
        Intelligence Center in Suitland, Maryland, established 
        COASTWATCH. Through this process, notice of arrival reports 
        from the National Vessel Movement Center are analyzed using law 
        enforcement and intelligence information and vessels of 
        interest are identified so that Coast Guard and other agencies 
        can appropriately respond to board those vessels before they 
        reach port, if necessary. The Coast Guard and CBP have 
        exchanged personnel to enhance data sharing between the CG 
        Intelligence Coordination Center's COASTWATCH (which gathers 
        and analyzes information on ship notice of arrival reports on 
        vessels, people, and certain dangerous cargoes approaching U.S. 
        ports) and CBP's National Targeting Center (cargo tracking) 
        process.
        <bullet> CBP's National Targeting Center (NTC) is a 24x7 
        operation that supports the enforcement and regulatory missions 
        of various agencies through a network of liaisons, which 
        includes the TSA, CG, Department of Energy, and members of the 
        intelligence community. CBP Officers and Field Analysis 
        Specialists that are experts in passenger and cargo targeting 
        for air, sea, and land operations in the inbound and outbound 
        environments primarily staff NTC. The NTC staff develops 
        tactical targets from raw intelligence in support of the CBP 
        mission to detect and prevent terrorists and terrorist weapons 
        from entering the United States. NTC also supports CBP field 
        elements, including Container Security Initiative personnel 
        stationed in countries throughout the world, with additional 
        research assets for passenger and cargo examinations. NTC 
        personnel are also currently engaged in the support of 
        intradepartmental and interagency anti-terrorist operations, 
        while simultaneously providing support to CBP targeting 
        programs, policies, and initiatives. One example of CBP's 
        commitment to collaborative targeting efforts is the Food and 
        Drug Administration Prior Notice Center located at the NTC and 
        operational since December 11, 2003. There, CBP and Food and 
        Drug Administration personnel conduct joint targeting on a 
        round the clock basis in support of the Bio-Terrorism Act.
        <bullet> CBP is conducting national targeting and using 
        automated targeting tools to screen advance information and 
        other data to identify high-risk shipments. As a key component 
        of the DHS maritime security strategy, CBP's Automated 
        Targeting System (ATS) is a critical tool for performing 
        transactional risk assessments and evaluating potential 
        national security risks posed by sea, air, truck, and rail 
        cargo.
        <bullet> ICE/AMO is reviewing an upgrade to the Tethered 
        Aerostat Radar System (TARS) to provide an ocean surface track 
        capability along the Southern coast. Airspace data gathered by 
        TARS is integrated within the national surveillance picture at 
        the Air and Marine Operations Center in Riverside, California 
        which provides that data to NORAD, the U.S. Secret Service 
        Operations Center and the National Capital Region Coordination 
        Center.
        <bullet> ICE/AMO P-3 aircraft have provided the ability to 
        conduct hull-checks on incoming commercial vessels 200 nautical 
        miles from the ports to assist CG prioritization and 
        identification of in-bound targets.
        <bullet> A key component of AMO's integration capabilities, the 
        Air and Marine Operations Center (AMOC) at March, Air Reserve 
        Base in Riverside, California, integrates military and civilian 
        radar tracking data to provide actionable real-time 
        intelligence to AMO aircraft and vessels throughout the Western 
        Hemisphere. Other customers include the National Capital Region 
        Coordination Center (NCRCC), NORAD, the U.S. Secret Service 
        operations center and the Transportation Security Operations 
        Center. The establishment of an additional center with like 
        capabilities on the east coast is being investigated.
        <bullet> CG is using a risk management system to identify High 
        Interest Vessels for follow-up security boardings and when 
        necessary, due to risk, vessel escorts and positive control 
        boardings to ensure the safety of vessels during their transit 
        into U.S. ports.
        <bullet> In partnership with the Chief of Naval Operations 
        (CNO), the CG is establishing interagency prototype joint 
        harbor operations centers in select Navy homeports improving 
        both port security and force protection capabilities. Such 
        prototypes are underway in San Diego, California and Hampton 
        Roads, Virginia.
        <bullet> TSA will soon begin the prototype phase in developing 
        the Transportation Worker Identification Credential (TWIC), 
        aimed at mitigating the threat of attacks to the national 
        transportation infrastructure. The TWIC prototype and 
        supporting measures will test how best to assess the risks of 
        transportation workers entering secure area of our national 
        transportation system. The President's FY 2005 request includes 
        spending authority to begin implementing the TWIC concept 
        within parameters that will be defined by the Administration 
        after completion of the prototype assessment.
        <bullet> Complementing the TWIC, the CG will continue 
        aggressive implementation of a Merchant Mariner Documentation 
        (MMD) Task Force plan, which ensures positive identity of 
        merchant mariners sailing on U.S. flag vessels and performs 
        appropriate security/background screening. In 2004, the CG will 
        provide for additional personnel support at Regional 
        Examination Centers, centralized security screening and 
        electronic fingerprinting capability.
        <bullet> The CG has established additional Maritime 
        Intelligence Fusion Centers on the east and west coasts for 
        both military intelligence and law enforcement sensitive 
        information. In addition, the CG established subordinate Field 
        Intelligence Support Teams (FISTs) in key ports. These teams 
        are actively engaged in Intel collection and first order 
        analysis in coordination with federal, state, and local 
        enforcement and Intel agencies. They are ``joint'' in the 
        broadest sense providing a critical top-down and bottom-up 
        information and intelligence.
        <bullet> In recognition that the threat in the post-September 
        11, 2001 strategic environment may seek to avoid hardened legal 
        points of entry by exploiting existing smuggling routes, ICE/
        AMO marine personnel working closing with ICE Office of 
        Investigations conduct unique undercover and intelligence 
        gathering within high-threat, non-commercial maritime 
        communities and transit areas as well as commercial points of 
        entry.
    Aside from the important initiatives above, we are seeing 
consistent and steady improvements in our ability to integrate and 
correlate information in the field such that we can effectively 
respond. For example, on March 13, 2004 the Coast Guard Pacific Area 
Maritime Intelligence Fusion Center advised CG Marine Safety Office 
(MSO)/Group Los Angeles/Long Beach that a 728-foot foreign flagged 
motor vessel with a cargo of crude oil was due into Los Angeles but 
failed to file an Advance Notice of Arrival properly. The MSO/Group 
responded and conducted a positive control boarding alongside ICE 
personnel while the vessel was at anchor. The crew was detained onboard 
due to improper visas. While we have much more work to do, our maritime 
domain awareness is improving every day.

Prevention--Create and Oversee Maritime Security Regime
    This element of our strategy focuses on both domestic and 
international efforts and includes initiatives related to MTSA 
implementation, IMO regulations such as the ISPS Code, as well as 
improving supply chain security and identity security processes. Recent 
accomplishments and future plans include:
        <bullet> The CG has established Area Maritime Security 
        Committees (AMSC), which assist in the development of Area 
        Maritime Security Plans nationwide, as required by the MTSA. 
        AMSCs will enhance maritime situational awareness and ensure 
        integrated maritime prevention and response operations among 
        the entire maritime community. CBP and TSA have designated 
        representatives assigned to the Area Maritime Security 
        Committees to assist CG Captains of the Port in addressing 
        cargo security issues.
        <bullet> The CG has completed Port Security Assessments (PSA) 
        at 19 of the 55 most significant military and economic ports in 
        the U.S. and will complete the assessments of all 55 strategic 
        ports by the end of calendar year 2004.
        <bullet> Final CG MTSA implementation Rules, drafted in 
        cooperation with TSA, CBP and the Maritime Administration 
        (MARAD), were published in October 2003 and security plans from 
        approximately 9,500 vessels and 3,500 facilities were due on 
        December 31, 2003. To date, approximately 99% have been 
        received. The CG will continue to aggressively pursue 100% 
        compliance, and has instituted a phased implementation of 
        penalties to ensure that all regulated facilities have 
        implemented approved security plans by the July 1, 2004 
        deadline.
        <bullet> The Coast Guard is actively involved with MARAD in the 
        development of maritime security competency standards and 
        security training curricula under Section 109 of MTSA.
        <bullet> The CG has met with approximately 60 countries 
        representing the vast majority of all shippers to the U.S., 
        reinforcing a commitment to the ISPS code. For vessels subject 
        to MTSA, the Safety of Life at Sea (SOLAS) amendments and the 
        ISPS Code, the CG is implementing strong Port State Control 
        measures to aggressively ensure foreign vessels have approved 
        plans and have implemented adequate security standards. The 
        measures include tracking performance of all owners, operators, 
        flag administrations, recognized security organizations, 
        charterers, and port facilities. Noncompliance will subject the 
        vessel to a range of control measures, which could include 
        denial of entry into port or significant delay. This aggressive 
        Port State Control regime will be coupled with the CG's inter-
        agency IPSP, comprised of representatives from the Department 
        of State, Department of Defense, CBP, TSA, and MARAD, that will 
        assess both the effectiveness of anti-terrorism measures in 
        foreign ports and the foreign flag administration's 
        implementation of the SOLAS amendments and the ISPS Code.
        <bullet> CBP's Container Security Initiative (CSI) enhances the 
        security of ocean-borne container traffic by placing multi-
        disciplinary CSI teams alongside host government customs 
        officers to ensure that all shipments that pose a potential 
        risk for terrorism are identified and inspected at foreign 
        ports before they are placed on vessels destined for the United 
        States. CSI is currently operational at 18 foreign seaports and 
        the program will expand to 17 additional foreign ports in 
        calendar year 2004. Once CSI is fully implemented, nearly 80 
        percent of all cargo containers headed for the United States 
        will be prescreened prior to lading before they depart from 
        abroad.
        <bullet> In December 2003, DHS promulgated final regulations 
        implementing the Trade Act of 2002, requiring advance, 
        electronic manifest information for all modes of 
        transportation. This information will augment that received and 
        analyzed already at the National Targeting Center.
                o For vessel operations CBP receives cargo declaration 
                information for all container vessels and non-approved 
                break bulk shipments 24-hours prior to loading the 
                vessel at the foreign port. With the implementation of 
                the Trade Act, CBP now requires this cargo information 
                in an electronic format via the Sea Automated Manifest 
                System (AMS). On March 4, 2004 all container vessels 
                must submit their cargo declaration information to CBP 
                electronically.
                o The Trade Act also provides for all modes of 
                transportation, inbound and outbound, to require cargo 
                information electronically and in advance of arrival. 
                CBP is currently requiring the data electronically 
                inbound for vessel and is expanding the requirement to 
                the inbound air and land modes of transport over the 
                remaining months of 2004. CBP anticipates requiring 
                reporting of electronic outbound data in the beginning 
                of 2005 in cooperation with Census.
        <bullet> CBP's Customs-Trade Partnership Against Terrorism (C-
        TPAT). C-TPAT is an innovative government/private sector 
        partnership program that covers all sectors of the 
        international supply chain. The program calls upon the trade 
        community to systematically establish procedures to enhance 
        their existing security practices and those of their business 
        partners involved in their supply chains. C-TPAT strengthens 
        U.S. borders against acts of terrorism while facilitating the 
        legitimate flow of compliant cargo, conveyances and persons. 
        Currently, over 6,200 members of the international community 
        have demonstrated their commitment to security by partnering 
        with CBP through this program.
        <bullet> Finally, the Border and Transportation Security 
        Directorate is leading a multi-agency working group in efforts 
        both to augment the Department's current cargo supply chain 
        security programs and meet specific requirements under the MTSA 
        to develop a ``Secure Systems of Transportation (SST)'' and 
        appropriate performance standards for cargo containers. Under 
        this initiative, involved agencies, including TSA, CBP, CG and 
        the DHS S&T and IAIP Directorates, are reviewing cargo 
        programs, analytic tools, and other relevant resources within 
        the department in order to identify remaining supply chain 
        vulnerabilities and develop strategies to mitigate these 
        vulnerabilities.
        <bullet> To advance this initiative, BTS expects to be able to 
        harness the results of ongoing test-bed programs that are 
        examining currently available and new technologies and 
        processes to enhance security for global intermodal supply 
        chains and facilitate the flow of commerce. One of these is the 
        Operation Safe Commerce program, an initiative in which DHS, 
        DOT and the Departments of Justice, Commerce and State, are 
        working with business interests, the largest U.S. container 
        load centers and the maritime industry to develop and share 
        best practices for the safe and expeditious movement of 
        containerized cargo. Test results from OSC will also be joined 
        with those obtained by CBP in its testing of various Smart Box 
        technologies within C-TPAT supply chains, and technologies and 
        processes identified by the Science and Technology 
        Directorate's under its recently published Broad Agency 
        Announcement designed to solicit and test new technologies to 
        be applied to container tracking and intrusion detection.

Protection--Increase Operational Presence/Enhance Deterrence
    Our collective efforts to increase operational presence in ports 
and coastal zones will continue to build upon the layered security 
posture established by the maritime security strategy. These efforts 
focus not only on adding more people, boats and ships to force 
structures but making the employment of those resources more effective 
through the application of technology, information sharing and 
intelligence support. Recent accomplishments and future plans include:
        <bullet> CG's Deepwater Program: A multi-year, performance-
        based acquisition that will replace or modernize 90 Coast Guard 
        cutters, 200 fixed wing aircraft and multi-mission helicopters 
        and the communications equipment, sensors, and logistics 
        systems required to maintain and operate them. Deepwater will 
        greatly improve the Coast Guard's maritime presence starting at 
        America's ports, waterways, and coasts and extending seaward to 
        wherever the Coast Guard needs to be present or to take 
        appropriate maritime action. Deepwater provides the capability 
        to identify, interdict, board, and where warranted seize 
        vessels or people engaged in illegal/terrorist activity at sea 
        or on the ports, waterways, or coast of America. In FY04, the 
        Deepwater Program:
                <bullet>Commences urgent re-engining of Coast Guard's 
                fleet of short-range helicopters to ensure safe and 
                reliable operations;
                <bullet>Accelerates the development of the Fast 
                Response Cutter;
                <bullet>Begins construction of the first National 
                Security Cutter (frigate-size vessel about 425 feet 
                long);
                <bullet>Acquires an additional Maritime Patrol Aircraft 
                (MPA);
                <bullet>Completes design and shipboard integration of 
                Vertical Unmanned Aerial Vehicles (VUAV);
                <bullet>Commences conceptual development of the 
                Offshore Patrol Cutter; and Delivers 4 Short Range 
                Prosecutors (cutter small boats) for use on the 123' 
                Patrol Boat.
        <bullet> CBP is employing Non-Intrusive Inspection (NII) 
        technology to screen shipments rapidly for anomalies. Deploying 
        NII technology to our land borders and seaports has increased 
        CBP's ability to detect conventional explosives, nuclear 
        weapons, and other terrorist weapons. NII equipment includes 
        large scale x-ray or gamma-ray imaging systems, portal 
        radiation monitors, and a mixture of portable and handheld 
        technologies to include personal radiation detection devices 
        that greatly reduce the need for costly, time-consuming 
        physical inspection of containers and vehicles.
        <bullet> CBP currently has 599 Personal Radiation Detectors 
        (PRD) and 60 Radiation Isotope Identifier Devices (RIID) 
        deployed at Border Patrol checkpoints nationwide. Radiation 
        detection equipment is being incorporated into our routine 
        roving patrol duties, marine operations and transportation 
        check assignments, which include airports and train check 
        operations.
        <bullet> DHS's priority undertaking is preventing weapons of 
        mass destruction from entering this country. The DHS goal is to 
        screen 100% of all arriving containers, trucks, trains, cars, 
        mailbags and express consignment packages with radiation 
        detection equipment. To achieve this goal, CBP has developed a 
        comprehensive risk management strategy for the deployment of 
        radiation portal monitors (RPM) throughout the country.
        <bullet> As of April 29, 2004, 269 RPMs have been deployed. The 
        vast majority of the deployed RPMs are at International Mail 
        Branches, Express Consignment Courier facilities and along 
        major Northern Border ports of entry. Presently, CBP has begun 
        deployment to our seaports. CBP has also deployed a large 
        number of handheld radiation detection technologies. Currently, 
        CBP has 321 radiation isotope identifier devices and over 9,418 
        personal radiation detectors to the field.
        <bullet> Prior to the attacks of 9/11, the CG had committed 
        less than 2% of its assets to active port security duty. 
        Immediately after 9/11, the CG surged nearly 60% of its assets 
        in immediate support of port security. Since then, the CG has 
        rebalanced asset deployments to provide roughly 28% of its 
        assets in coverage of port security a significant and steady 
        increase in operational presence.
        <bullet> CG Maritime Safety & Security Teams (MSSTs) provide 
        immediately deployable multiple-boat, law enforcement 
        capability that can be sustained over an extended period. Teams 
        are equipped to deploy (via land or air) to any location within 
        12 hours of notification. To date, eight of thirteen MSSTs have 
        been commissioned and the remainder will be operational by the 
        end of CY 2004.
        <bullet> CG is equipping helicopters with Airborne Use of Force 
        (AUF) and Vertical Insertion (VI) capability. This will enhance 
        the Coast Guard's ability to secure our oceans, ports, 
        waterways, and coastal areas against illegal drug, migrant, and 
        terrorist activity by providing capability to fire warning 
        shots and disabling fire and rapidly/covertly deploying 
        boarding teams aboard vessels at sea. The Coast Guard currently 
        has 8-armed MH-68 helicopters operating out of Jacksonville, FL 
        and will equip four HH-60J armed helicopters by April 2004.
        <bullet> TSA is implementing the ``synergy Project,'' to test 
        the long-term feasibility of screening and transferring 
        passenger baggage from seaport to airport, reducing the 
        congestion at airport security checkpoints caused by the influx 
        of large number of passengers disembarking from cruise ships. 
        This program is currently underway at the ports of Miami and 
        Vancouver.
        <bullet> Responding to threat assessments in and in support of 
        the Maritime Homeland Security Strategy, CG Stations Boston and 
        Washington, D.C. were created in Fiscal Year 2004.
Response and Recovery--Improve Response and Recovery Posture
    Understanding the challenge of defending 26,000 miles of navigable 
waterways and 361 ports against every conceivable threat at every 
possible time, we are also aggressively working to improve our response 
capabilities and readiness. While the above increases in operational 
presence necessarily augment our collective response posture, 
additional accomplishments and future plans include:
        <bullet> The Secretary announced on March 1, 2004 the approval 
        of the National Incident Management System (NIMS). It is the 
        Nation's first standardized management approach that will 
        provide a consistent nationwide template to enable federal, 
        state, local, and tribal governments as well as private-sector 
        organizations to work together effectively to prepare for, 
        prevent, respond to, and recover from a terrorist attack or 
        other major disaster. NIMS will ensure that all of our nation's 
        responders are working in support of ``one plan, one team, one 
        fight.'' For the first time, there will be standardized 
        procedures for responding to emergencies across the nation. A 
        NIMS Integration Center will also be established to identify 
        and share best practices on preparedness with state and local 
        authorities, provide consistent training to first responders 
        across the country, and conduct exercises involving many 
        different localities.
        <bullet> Continue deployment of Rescue 21--the CG's maritime 
        911 command, control and communications system in our ports, 
        waterways, and coastal areas. Nationwide implementation 
        continues during 2004. This system provides Federal, state and 
        local first responders with interoperable maritime 
        communications capability, greater area coverage, enhanced 
        system reliability, voice recorder replay functionality, and 
        direction finding capability. Rescue 21 represents a quantum 
        leap forward in communications technology.
        <bullet> ICE AMO has been developing and exercising the 
        capability to deliver via fast rope, incident response teams. 
        This capability will provide AMO the capability to deliver ICE 
        Office of Investigations and Federal Protective Service 
        Critical Response Teams to the scene of incidents with a much 
        shorter response time.
        <bullet> DHS agencies, including Emergency Preparedness & 
        Response, TSA CG, CBP, and the Office of Domestic Preparedness 
        are working closely with DOT's Maritime Administration (MARAD) 
        and other modal administrations to develop standards and 
        policies to enhance coordination of the recovery of the 
        transportation system in the event of a transportation security 
        incident. For example, TSA is working with MARAD to study the 
        impacts and lessons learned from the recent four-day closing of 
        the Mississippi River caused when a barge sank from hitting the 
        Greenville Bridge linking Mississippi and Arkansas.
        <bullet> DHS agencies routinely lead or participate in national 
        intermodal terrorism exercises, such as Operation Heartland, 
        United Defense and TOPOFF2, designed to enhance our ability to 
        prevent, mitigate, and respond to potential transportation 
        security incidents.
    DHS's response and recovery organization was further strengthened 
at the ``California Spill of National Significance 2004'' exercise (CAL 
SONS 04), which was held 20-24 April 2004. CAL SONS 04 was a CG-
sponsored full-scale national exercise that posed two major marine 
incidents off the coast of Southern California and required a 
coordinated response by local, state and federal agencies, the 
government of Mexico, industry partners and volunteer organizations. 
CAL SONS 04 was guided by the Initial National Response Plan and 
National Oil and Hazardous Substance Pollution Contingency Plan. It 
involved the broad range of response and recovery functions including 
rescue, mobilization of people and resources, multi-level incident 
management, tactical operations and testing of industry and agency 
contingency plans. The CG's National Strike Teams, which have been 
trained for Chemical, Biological and Radiological responses and were 
instrumental in the response and recovery operations at the recent 
Ricin incident in the Senate Office Building, were also deployed. This 
exercise successfully showed the integration among the various command 
centers including the Homeland Security Operations Center, the 
Interagency Incident Management Group, the National Response Team, the 
Coast Guard Headquarters Crisis Action Center and the local incident 
command center.
    In summary, DHS is taking a comprehensive approach to the needs of 
maritime security. It cannot start and end at our maritime borders. 
Rather, it will take an integrated and coordinated approach that 
stretches from ports such as Miami and Los Angeles to Singapore and 
Rotterdam.

Service to the Public--Effect on Commerce
    In addition to Awareness, Prevention, Protection, Response and 
Recovery a sixth strategic goal of the Department of Homeland Security 
is Service. In this, we will strive to serve the public effectively by 
facilitating lawful trade, travel and immigration.
    The Department is sensitive to the impact that increased security 
may have on commerce. The wide variety of security measures implemented 
to date has had no significant adverse impacts on the flow of maritime 
commerce. That said, we note that the cost to industry to comply with 
MTSA regulations is estimated to be $1.5 billion in the first year and 
$7.3 billion over the next 10 years. While we clearly understand that 
the cost of these security regulations to the maritime industry is not 
insignificant, a terrorist incident against our marine transportation 
system could have a devastating and long-lasting impact on global 
shipping, international trade, and the world economy. A terrorist act 
that closed a major port could cost up to $2 billion per day in 
economic loss to the United States.
    The Department understands there will be short-term costs, 
particularly for many smaller ports or companies with less existing 
security. Nonetheless, as the industry owns the infrastructure that is 
being protected, and benefits from that ownership, they should rightly 
be involved in protecting their infrastructure. We are engaged with the 
maritime industry to provide information on any available federal 
funding. Thus far, the Department has awarded or made available a total 
of nearly $500 million in port security grants over two years. There is 
also a shared cost burden by the government. The Department of Homeland 
Security, and its associated agencies, has spent hundreds of millions 
of dollars to improve our capability to protect the Marine 
Transportation System. However, the cost of securing America cannot be 
left exclusively to the American taxpayer.
    In addition, we are continuously seeking out technology and 
procedural changes that will make our efforts not only more effective 
and efficient but also less onerous on the vast majority of maritime 
stakeholders who pose no threat to maritime security. As an example, 
the CG is incorporating an option in the 96-hour vessel notice of 
arrival (NOA) requirements to permit electronic submission of 
information. This e-NOA submission method will allow for importation of 
data into the CG's National Vessel Movement Center (NVMC) database, the 
Ship Arrival Notification System (SANS), eliminating all but minimal 
manual data entry. This will significantly enhance the processing and 
identification of security and safety risks posed by vessels entering 
our ports and move information to the field much more rapidly. By 
merging CBP and CG vessel and people information requirements into the 
e-NOA, the reporting burden on the maritime industry will be reduced. 
When the e-NOA system is fully developed, vessel owners and operators 
will have the option to use the e-NOA to satisfy CBP's Advance 
Passenger Information Service (APIS) requirements as well as the CG's 
NOA requirements.
    The security requirements of the MTSA were developed with the full 
cooperation of the private sector. We have developed the security 
regulations to be performance-based, providing the majority of owners 
and operators with the flexibility to implement the most cost-effective 
operational controls, rather than more costly physical improvement 
alternatives. By establishing consistent national and international 
security requirements we will also be helping businesses by leveling 
the playing field. Consistency helps business--consistency amongst 
companies, states and countries. The Department will be vigilant in its 
Maritime Homeland Security mission and will remain sensitive to the 
impact of security measures on maritime commerce.

Conclusion
    Our maritime security is first and foremost about awareness--
gathering and synthesizing large amounts of information and specific 
data from many disparate sources to gain knowledge of the entire 
domain. Maritime Domain Awareness and the knowledge it imparts will 
allow maritime law enforcement and regulatory agencies to respond with 
measured and appropriate action to meet any threat. However, it will 
require the continued growth and development of strong partnerships not 
the least of which is among the CG, TSA, ICE and CBP, state and local 
agencies and our collective maritime stakeholders. No single maritime 
stakeholder whether it is government, industry, or private sector can 
do this alone. We must continue to work together to improve security. 
This is never more important than now in our collective national 
imperative to defend our nation and win the war against terrorism.
    The men and women of DHS have accomplished a great deal in the past 
year and we are each very proud of them. In the end, no amount of 
planning or strategizing is worth the paper it is written on without 
the dedicated effort of committed men and women who wake up every day 
with the safety and security of their nation on their minds. Thank you 
for the opportunity to testify before you today. We will be happy to 
answer any questions you may have.

JAYSON AHERN, ASSISTANT COMMISSIONER, FIELD OPERATIONS, BUREAU 
                OF CUSTOMS AND BORDER PROTECTION

    Mr. Ahern. Good afternoon, Madam Chairman and members of 
the committee. Thank you very much for the opportunity to 
testify on maritime security and the progress United States 
Customs and Border Protection continues to make in working in 
concert with our partners: United States Coast Guard, 
Immigration and Customs Enforcement and the Transportation 
Security Administration.
    I am also very pleased to be here with my colleagues: 
Admiral Belz, Mr. Blank and Mr. Stallworth. With our federal 
government's prevention, preparedness and response capabilities 
now under one roof in one department of government, and with 
that department under the outstanding leadership of Secretary 
Ridge, agencies charged with securing our borders are 
positioned to meet this challenge with a unity of purpose and 
combined resources.
    CBP's primary mission is homeland security. This means 
detecting and preventing terrorists and terrorist weapons from 
entering the United States.
    However, we are mindful of the fact that we must secure 
America's borders in a way that does not stifle the legitimate 
flow of travel and trade that is vital to the American economy. 
For this reason, CBP is fully committed to supporting the 
department's implementation of the Maritime Transportation 
Security Act.
    I would like to highlight a few of CBP's contributions in 
this area. We have shared the responsibility for the 
implementation of the act.
    We support the Coast Guard in the port security 
vulnerability assessments, both here at home and abroad, to 
include the Coast Guard representatives joining with CBP in a 
partnership to do the assessments overseas at our CSI ports; 
assisting the Coast Guard in drafting guidance and sanctions 
for non-compliant ports under the International Port Security 
Program; and partnering with the Coast Guard and TSA to develop 
a single set of regulations regarding the advance report of 
crew member and electronic passenger manifests.
    Speaking about the United States Border Patrol as part of 
Customs and Border Protection, Border Patrol is responsible for 
the interdiction enforcement and operations between our 
nation's ports of entry. Their mission is to prevent the entry 
of terrorists and implements of terrorism from illegally 
entering the United States between our designated ports of 
entry.
    In direct support of that mission, CBP maintains a fleet of 
102 boats located at 16 of the 21 Border Patrol sectors 
nationwide. CBP Border Patrol agents routinely conduct drug 
enforcement operations with the Coast Guard and Immigration and 
Customs Enforcement marine units.
    These interagency operations maximize each agency's unique 
mission-specific capabilities in support of the common goal of 
securing the homeland.
    Examples include: joint maritime operations in the Great 
Lake areas; participation with Coast Guard-led training 
exercises for cold water survival and boat handling skills. As 
mentioned by Admiral Belz, we are modernizing our fleet by 
adding six new 25-foot response boats built on an existing 
Coast Guard contract.
    And lastly, CBP is part of the DHS Commodity Council, 
tasked with developing processes and procedures to optimize 
resources.
    Protecting our seaports also places a great importance on 
knowing what is in the sea containers prior to arriving in our 
country. And I would like to talk about a few of those 
measures.
    It begins with the National Targeting Center, which is the 
hub of our targeting efforts and sets the standards and defines 
the processes for which containers we will look at coming into 
this country. The NTC has established a range of liaisons with 
other agencies responsible for securing the U.S. borders and 
commerce, including the Coast Guard, TSA, Department of Energy, 
Food and Drug Administration, the FBI and members of the 
intelligence community.
    The NTC also is fundamentally surrounded by an automated 
targeting system, which gives us a very key component for 
analyzing information and focusing our inspection efforts on 
the potentially high-risk transactions and sorting through the 
universe of 9 million containers that come into this country.
    The Container Security Initiative certainly is an effort by 
CBP to secure the ocean-borne container traffic by placing 
multidisciplinary CSI teams alongside host country nation 
customs officers to ensure that all shipments that pose a 
potential risk for terrorism are identified and inspected at 
the foreign ports before they are placed on a vessel destined 
for the United States.
    CSI currently is operational in 18 foreign ports and will 
expand to 17 by the end of this calendar year, which will 
account for about 80 percent of the container traffic destined 
for this country.
    The Customs-Trade Partnership Against Terrorism currently 
is focused with the trade community to identify security 
standards to ensure the integrity of the entire supply chain. 
We currently have members numbering over 6,200, including U.S. 
importers, fair sea and rail carriers, trucking companies, U.S. 
port authorities. And we recently began to add Mexican foreign-
based manufacturers.
    These partners are also fulfilling their commitments to us 
by now allowing us to have our validation teams go overseas and 
actually begin to assess their protocols they have put in place 
to ensure supply chain integrity. C-TPAT is also working with 
five members of the partnership to go ahead and test the 
container security devices so we can have smarter containers 
and tamper-evident containers coming into this country.
    And I would like to conclude by updating the status of our 
non-intrusive inspection and radiation detection programs. Used 
in combination with our other enforcement strategies, these 
tools provide us with significant capacity to detect and deter 
nuclear or radiological materials coming into this country.
    Technologies deployed to our nation's sea, air and land 
ports of entry include large-scale x-ray and gamma imaging 
devices, as well as a variety of portable and hand-held 
technologies. To date, CBP has deployed 148 large-scale imaging 
systems nationwide, with 51 of those being positioned on both 
coasts at our seaports.
    To date, we are also deploying very quickly our nuclear and 
radiological detection equipment at our ports of entry. To 
date, we have 269 radiation portal monitors at sea ports, land 
border ports and airports and air cargo environments.
    And I think I will conclude at this point and be happy to 
take any questions you might have later.

 STATEMENT OF CHARLES STALLWORTH, II, DIRECTOR, AIR AND MARINE 
  OPERATIONS, BUREAU OF IMMIGRATIONS AND CUSTOMS ENFORCEMENT, 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Stallworth. Good afternoon, Madam Chairman and 
distinguished members of the subcommittee. Thank you for the 
opportunity to testify on behalf of the men and women of the 
Immigration and Customs Enforcement Office of Air and Marine 
Operations about the work we are performing to enhance the 
maritime security mission.
    The primary mission of ICE and the Department of Homeland 
Security is to direct and address vulnerabilities in our 
national security whether those vulnerabilities expose our 
financial systems to exploitation or our borders to 
infiltration. In close coordination with our counterparts at 
Customs and Border Protection, the United States Coast Guard 
and the Transportation Security Administration, ICE Air and 
Marine Operations is uniquely situated to maximize our vast 
jurisdictional and statutory authorities to continue to protect 
our homeland.
    ICE is the primary investigative arm of the Department of 
Homeland Security. And the Office of Air and Marine Operations 
has a longstanding history of protecting the borders of this 
nation, including our maritime borders.
    Air and Marine Operations enhances the capabilities of ICE 
and the department with core competencies in air and marine law 
enforcement, air and marine interdiction and airspace security. 
As this hearing convenes, the men and women of ICE and Air and 
Marine Operations are applying these core competencies to 
secure our cities, borders and nation.
    This mission is being accomplished both nationally and 
internationally in partnership with other agencies within the 
department. The Office of Air and Marine Operations has, for 
many years, successfully performed these duties at the tip of 
the spear, alongside the United States Coast Guard and the 
Border Patrol.
    Going beyond simply interdicting illicit cargo and 
arresting criminals involved, ICE investigations in Air and 
Marine Operations lend an enhanced ability to interdict and 
investigate immigration and customs violations. For example, 
our ability to target human smuggling alongside of narcotics 
and weapons and other forms of smuggling and follow the illicit 
money trail wherever it may lead places ICE in a unique 
position to enforce our homeland security mission in ways never 
before foreseen.
    In the post-September 11, 2001, strategic environment, 
illegal penetration of our borders and sensitive airspace could 
be linked to or constitute the next actual attack. My esteemed 
colleagues within DHS that are here with me today are partners 
that we work with to counter these numerous threats to our way 
of life.
    However, we recognize that simply continuing the fight, as 
our legacy agencies did, will not achieve the level of 
protection we owe the American people. That is why Air and 
Marine Operations, in coordination with the other agencies of 
DHS, is continuing to work towards improving its capability to 
deter, interdict and prevent airspace and border intrusion.
    We created a national capital region branch that provides 
24/7 airspace security coverage over the Washington, D.C. area. 
Less than three miles away from where we sit now, at Ronald 
Reagan Airport, Air and Marine Operations crews and their jet 
interceptors and Black Hawk helicopters are on the ramp, ready 
to launch at a moment's notice, to help secure the airspace, in 
partnership with the U.S. Air Force units in this region.
    In addition, Air and Marine Operations provided airspace 
security coverage when the threat level is raised to orange 
during events such as the State of the Union Address and the 
Super Bowl and in support of Operation Liberty Shield. 
Simultaneously working with ICE Investigations Division, the 
men and women of Air and Marine Operations are continuing to 
provide a deterrent force against the importation of weapons of 
mass destruction and other instruments of terror into the 
United States, disrupting narcotics smuggling and money 
laundering organizations and enforcing embargos, trade 
agreements and sanctions imposed by the United States 
government against other entities.
    Air and Marine Operations brings to the table capabilities 
that enhance the investigative capabilities of ICE, while 
supporting and acting as a force multiplier for other DHS 
agencies.
    Our air and marine capabilities are a critical and integral 
part of the Department of Homeland Security's efforts to 
conduct effective counter-terrorism, law enforcement and 
counter-smuggling operations against seaborne threats. With 
their unique law enforcement authority, our personnel, 
operating aircraft and vessels, extend the department's 
maritime domain awareness capability, while also providing an 
unmatched capability for airspace domain awareness.
    Employing a defensive strategy to push threats far from our 
shores, we use our long-range P-3s to interdict, identify and 
deter maritime and air threats as far from our borders as 
possible.
    At this time, I would like to conclude my comments and 
reserve the time for your questions and my colleagues.
    Thank you.
    Ms. Granger. Thank you very much.
    Mr. Blank?

  STATEMENT OF TOM BLANK, ASSISTANT ADMINISTRATOR FOR POLICY, 
             TRANSPORTATION SECURITY ADMINISTRATION

    Mr. Blank. Good afternoon, Madam Chairman, Chairman Cox, 
Representative Turner and distinguished members of the 
subcommittee. It is an honor to appear here on behalf of TSA 
this afternoon to discuss maritime security operations within 
the Department of Homeland Security.
    As my colleagues have already stated, the Department of 
Homeland Security agencies are working closely together to 
maximize government resources, ensure consistency among agency 
initiatives and programs and avoid potential overlap in 
carrying out our maritime security mission.
    DHS, pursuant to Homeland Security Presidential Directive 
7, is in the process of developing a national critical 
infrastructure plan that will identify and prioritize United 
States critical infrastructure and key resources and to protect 
them from terrorist attack. This plan will be comprised of 
Sector Specific Plans. And TSA has been assigned primary 
responsibility for developing the transportation-specific SSP.
    The transportation SSP will discuss how federal and private 
sector stakeholders will communicate and work together, how 
important assets in the transportation sector will be 
identified, assessed and prioritized, how protective programs 
will be developed, how progress in reducing risk will be 
measured and how R&D will be prioritized in the sector. In the 
transportation sector, the SSP will further these efforts 
currently underway and help ensure that they are systematic, 
complete and consistent with the efforts in the other 12 
sectors.
    In developing the transportation SSP, TSA is working under 
Border and Transportation Security Directorate guidance and 
with partners in the U.S. Coast Guard, U.S. Customs and Border 
Protection, U.S. Immigration and Customs Enforcement and the 
Department of Transportation and its Modal Administration. DHS 
will build on the foundation of the SSP to provide overall 
operational planning guidance on transportation security.
    The expanded SSP will ensure that modal security plans are 
integrated into an effective concept of operations for 
management of the transportation sector security. For example, 
the Coast Guard, who is the lead DHS agency for maritime 
security, is developing a national maritime transportation 
security plan. That will become a critical component of the 
transportation Sector Specific Plan.
    As to TSA actions beyond the Sector Specific Plan, these 
include development of a web-based, no-cost maritime 
vulnerability assessment tool that is assisting port, vessel 
and facility owners to complete vulnerability assessments 
required by the Maritime Transportation Security Act. And to 
date, TSA has received over 1,200 requests to use this tool.
    TSA has implemented a synergy project designed to examine 
the feasibility of implementing a cost-effective, functional 
and secure system to screen and transfer cruise ship passenger 
baggage from seaport to airport and reduce congestion at 
airport security checkpoints caused by the influx of large 
numbers of passengers disembarking from cruise ships. We are 
testing this program currently in Miami and Vancouver.
    TSA will soon begin the prototype phase of the 
transportation worker identification credential, or TWIC. The 
prototype will test the feasibility of bringing greater 
uniformity to procedures for granting access to those who work 
in the most sensitive and secure areas of our national 
transportation system.
    TSA personnel are assisting the Coast Guard in developing 
the policies and procedures that will be used for the 
international port security program and, to that end, have 
provided the Coast Guard will examples and lessons learned from 
the foreign airports audit program. Key TSA federal security 
directors from around the country, as well as TSA headquarters 
staff, serve on the Coast Guard's Area Maritime Security 
Advisory Committee.
    Working together under the leadership of VTS, we are 
developing a more comprehensive framework for securing the 
maritime cargo supply chain. This initiative will also assist 
in meeting the missive requirements for secure systems of 
transportation, emphasizing intermodal aspects of maritime and 
cargo transportation.
    We are reviewing cargo programs, analytical tools and other 
relevant resources in order to identify remaining supply chain 
vulnerabilities. The department expects the results of 
Operation Safe Commerce will also help shape this framework.
    Operation Safe Commerce is a pilot program at the largest 
U.S. container load centers--Los Angeles/Long Beach, Seattle/
Tacoma and New York/New Jersey--that brings together private 
business, ports, local, state and federal representatives to 
analyze current security procedures for cargo entering this 
country.
    The program has functioned like a venture capital fund to 
promote research and development for emerging technology and 
business practice changes to monitor the movement and integrity 
of containers through the supply chain. The OSC program 
provided resources to find innovative ways to track and protect 
cargo entering the United States from all over the world.
    OSC will complete its work next year. Secretary Ridge has 
awarded $58 million in OSC grants this year. And we expect to 
fund an additional $17 million in OSC technology deployments 
later this year.
    With that, Madam Chairman, I will suspend.
    Ms. Granger. I will recognize members for the questioning. 
The five-minute rule will apply. It will be extended to eight 
minutes for those who did not make opening remarks.
    And as chair, I have a couple of questions.
    Admiral Belz, first. The Coast Guard's Deepwater program 
includes funding for unmanned aerial vehicles. Are there any 
plans to expand the maritime mission of UAVs departmentwide?
    Admiral Belz. Madam Chairman, the Coast Guard's program 
with regard to maritime UAVS include both vertical UAVS and 
kind of fixed-wing UAVs. Specifically with regard to Deepwater, 
those assets are set out over time in a phased implementation 
right now that would include primarily utilization within our 
own deep water acquisition.
    With regard to the other modal agencies, there is indeed 
interest on the part of the UAVs. And I think there is, in 
fact, a subgroup, a UAV subgroup at the department, to which I 
believe all of us are partners that operate aircraft.
    And I think there has been both testing on both the 
maritime and land borders right now separately by the agencies. 
But we are learning from each other.
    Particularly in some cases, you actually have different 
concerns in terms of that particular operating environment. So 
although we are anxious to learn from each other, we are also 
learning from the Department of Defense and others with regard 
to the utilization of UAVs.
    Clearly it is the way of the future. And particularly for 
routine and persistent surveillance, this offers exciting and 
promising opportunities for us.
    I would perhaps also ask my colleagues to comment on that 
with regard to their specific endeavors going on.
    Ms. Granger. Mr. Ahern?
    Mr. Ahern. Thank you. Currently, the Border Patrol is 
actually employed a test that is in the Western Desert 
Initiative as part of the Arizona Border Control Initiative 
that is going on in Arizona currently.
    Beginning June 1 and through the end of this year, we 
actually--through the end of this fiscal year--we actually will 
be doing a test between the ports of entry for the UAV project 
just over land at this point in time. And we will be evaluating 
that and feeding that into the departmental working group that 
will be stood up.
    But it is for land at this point. And they will be 
operating about eight hours a day.
    Ms. Granger. Thank you.
    Mr. Stallworth?
    Mr. Stallworth. The Office of Air and Marine Operations 
conducted a 15-day test last November in Arizona, utilizing DOD 
assets under our operational control under the Air and Marine 
Operations Center control. And that 15-day test, resulted in 
2,400 pounds of marijuana, three vehicles, 18 unaided 
detections of violations and eight arrests of suspects and the 
detention of 22 undocumented aliens. So we have utilized it, 
tested it and found it to be operationally feasible and are 
looking at ways to partner with our sister agencies and take 
advantage of the technology.
    Ms. Granger. Thank you.
    Mr. Blank?
    Mr. Blank. I have nothing to add, Madam Chairman.
    Ms. Granger. Thank you very much.
    Now I call on Representative Turner.
    Mr. Turner. Thank you, Madam Chairman. I want to thank all 
of our witnesses for being here today.
    One question that comes to my mind, Mr. Blank. The 
Transportation Security Agency had a whole lot of work to do 
around aviation security. The only thing I have noticed from my 
notes that you are doing at the ports is trying to implement 
this new transportation worker identification card.
    And I understand there has been some confusion about it. 
And people are wondering when it is going to be implemented to 
try to improve security of those who work at the ports.
    What would you think if the Congress just decided to get 
you out of the business of worrying about port security and put 
it in the hands of the Coast Guard, that handles 90 percent of 
it right now?
    Mr. Blank. I think every agency represented here brings a 
certain subject matter expertise to achieving the overall 
mission in the maritime sector that DHS was charged with 
carrying out. TSA has a great deal of credentialing expertise.
    We think the TWIC is going to make a significant 
contribution to assuring that unescorted access to secure areas 
of the transportation system, whether they be ports or other 
maritime terminals or rail infrastructure, that we do not have 
people getting in there that we do not want, want to get in 
there.
    We think our role in the big picture of developing the plan 
under HSTD 7 is a significant contribution. And we think what 
we have to do is make sure that we are focusing on the 
intermodal nexus so that we do not have modal isolationism. 
That is a TSA job, to look at how the whole program fits 
together.
    We think we have some responsibility and a contribution to 
make in the area of supply chain security. Because, again, if 
we were removed from having some responsibility in the maritime 
sector, it might affect our capability to look at how the 
maritime cargo supply chain links up with the rail supply 
chain, links up with the surface trucking supply chain.
    And so as we get the information and learning from 
Operation Safe Commerce, we think the role that has been 
designed for us is something that can make an effective 
contribution. But we do recognize that the lead in the maritime 
sector belongs to the Coast Guard. And we support that.
    Mr. Turner. Thank you.
    I sometimes wonder if we would not do a more effective job 
if we did not have several people with their different programs 
being run by different folks. Obviously, we attempted, in 
creating the Department of Homeland Security, to provide some 
focus here.
    But you have a little piece of it. Customs and Border does. 
Coast Guard is. And I agree with it. Coast Guard traditionally 
has had the lead role and should have.
    Mr. Dicks. Will the gentleman yield just for an 
observation? I am told that TSA has taken no steps to begin the 
background check process which is required before a TWIC can be 
issued to an individual or develop a distribution plan. Is 
that, in fact, true?
    Mr. Blank. We have the capability to do background checks 
and will do so at the time the TWIC program is initiated. We 
envision the background check. We are experienced in doing it 
in the aviation sector.
    We are currently beginning to do a background check that 
will become more fulsome on hazmat truck drivers. But we would 
not be taking steps to do background checks before we have our 
technical infrastructure relative to the TWIC and get through 
our prototyping of the technology phase.
    Mr. Dicks. Thank you for yielding.
    Mr. Turner. Thank you.
    Mr. Ahern, you mentioned you have 269 radiation portal 
monitors in place. But the reality is that less than 10 percent 
of those are at our seaports.
    The President's budget requested $43 million for purchase 
of additional radiation portals so we can check these 
containers as they come into our country for radiological or 
nuclear material. By my estimate, in order to complete the task 
of installing radiation portals, it would take something in the 
neighborhood of $250 million more than the President requested 
in his budget.
    Am I in the ballpark?
    Mr. Ahern. Those numbers are accurate. And I have 
previously testified to those numbers before another committee.
    Mr. Turner. If we could persuade the President and the 
Congress to make our ports safe in the next fiscal year from 
the fear of some radiological device getting in our country, 
would you be able to implement that program with the additional 
$250 million? Is there anything standing in your way, other 
than funding, is what I am asking you?
    Mr. Ahern. We have developed a project execution plan that 
shows what we feel we need to execute the radiation detection 
strategy throughout our ports of entry.
    Mr. Turner. No, that is not what I asked you. I said: is 
there anything standing in your way of doing it now except the 
fact that the President has not asked for--I know the Congress 
has yet to appropriate--the additional $250 million that would 
allow you to get the task done? I know you have a plan and I 
know it is over years. I am saying: could you do it next year 
if we could persuade the Congress to fund it?
    Mr. Ahern. We would have to go back and take a look at the 
project execution plan to see if we could reconfigure the plan 
to see if we could get it done by the end of 2005. But it 
really would be funding-dependent. But we clearly do need the 
additional funding to complete this plan as prepared.
    Mr. Turner. So I think I am hearing you say that if we 
could persuade the Congress and the President to ask for and to 
appropriate the money, you could get the job done.
    Mr. Ahern. We have a plan that could be executed.
    Mr. Turner. Thank you, sir. One other inquiry, Mr. Ahern. 
We are relying on this C-TPAT program--Customs-Trade 
Partnership Against Terrorism program--to be sure that we have 
containers coming into our country that we think are safe. And 
there are 6,200 companies that have signed up with you to 
participate in that program.
    And yet, my information is that to date, we have only 248 
of those companies' security measures validated. So that leaves 
almost 6,000 that we have yet to verify that they are actually 
complying with any kind of security standards.
    What is it going to take to get that job done quicker? Will 
the appropriations that you have requested allow those 
verifications to be completed by the end of this next fiscal 
year if you get the funds that the President has requested of 
the Congress? Can you do it in this fiscal year?
    Mr. Ahern. Out of the 6,200 C-TPAT we currently have in the 
program, there are 3,100 that are certified. And out of the 
universe of applications, we have a 15 percent rejection rate. 
So 15 percent are not allowed in to be participants.
    There are 3,100 that are certified. We have 700 validations 
that are initiated, with 248 that are completed.
    In the authorization or actually, in the initiative we put 
forth for this year, we did actually receive funding for 157 
positions for C-TPAT. At this point in the year, I have 41 of 
those actually brought on board. And we are continuing to move 
forward with bringing the additional validation specialists on 
board, so that we can fulfill our responsibility to do the 
overseas validations, as well as the domestic validations, of 
the companies that are involved with C-TPAT.
    Mr. Turner. So I am not sure I got an answer to my 
question. If you get the appropriations that the President 
asked for, can you complete the verification of these 6,200 
companies by the end of the fiscal year 2005?
    Mr. Ahern. I think it would be careless for me to give you 
a number. I would have to process it out, congressman, to make 
sure, as far as once we get our people on board, the capacity 
to do those.
    We believe that we have an adequate number with the 
initiative money we have for this year bringing 157 on board. 
Once we get them staffed up, I believe that would give us the 
capacity to do what we need to do.
    Mr. Turner. Thank you.
    Ms. Granger. Thank you.
    The chair now recognizes Chairman Cox for eight minutes.
    Mr. Cox. I thank the chairwoman. And also, welcome to the 
witnesses. Thank you for your forbearance during our floor vote 
and for your outstanding testimony.
    I also want to say, since most of our opening statements 
were interdicted by the floor vote, that we recognize the 
enormous contributions that the many operators within the 
Department of Homeland Security that you represent are making 
in the war on terrorism every day. The people that you 
represent are defending our nation at great personal risk.
    And I do not think there is any more eloquent testimony to 
that fact than the death last week in Iraq of Coast Guard Petty 
Officer Nathan Bruckenthal. He was, of course, deployed with 
the Coast Guard forces to the Persian Gulf and was killed in an 
explosion, along with two sailors, U.S. Navy sailors, when they 
intercepted a terrorist suicide boat that was heading for an 
oil terminal in the northern Arabian Gulf.
    So we want to honor all of these men and women that you 
represent today as we conduct this hearing on how we can make 
constant progress in the effort.
    I want to begin by asking how we can foster more jointness 
in the mission that you have all taken from the legacy agencies 
that you represent into this new Department of Homeland 
Security.
    I want to start, Mr. Stallworth, by asking you: should ICE 
aircraft be able to land at a Coast Guard air station for 
repairs?
    Mr. Stallworth. Yes, sir. I believe they should be able to 
and can land there. The question of repairs on aircraft is 
whether or not the mechanics and others that are present are 
certified to work on it.
    And the main objective there would be to make sure that we 
are all flying aircraft that are similar if they have the same 
mission.
    Mr. Cox. And are we building towards that? Are we building 
towards shared repair and maintenance facilities?
    Mr. Stallworth. We are in those places where we can. We are 
looking at that right now.
    We are looking at an air logistics or aviation logistics 
management system right now that the Coast Guard operates 
called ALMIS. We are going to have a test that actually starts 
later on this month down in Corpus Christi, Texas, where we 
have collocated organizations near the same facility.
    And obviously, with us being legacy organizations which 
were not joined at the hip, so to speak, for the past several 
years, we have about--I think the number is 58 different types 
of aircraft in the Department of Homeland Security, out of the 
number being something in the neighborhood of 450 or so 
aircraft total.
    So we have some ways to go. But on the good side of that, 
where we are looking at multi-role or maritime patrol aircraft, 
we are looking at the same aircraft. The same thing for our 
medium-lift helicopter; our Joint Requirements Council is 
bringing those requirements together so that where it is 
possible, where it meets our mission requirement and where we 
can save on logistics and maintenance interoperability, we will 
do those things and take those steps so that we have aircraft 
that meet the multiple mission requirements of the agencies 
where possible.
    Mr. Cox. To pursue this jointness notion a bit further, Mr. 
Ahern, should the ICE Air and Marine Operations Center be able 
to tell where all CBP aircraft are operating?
    Mr. Ahern. I think certainly as far as we need to make 
certain that all aviation is coordinated so that we do not have 
any mishaps or aviation safety concerns or a potential for 
assets to be mustered to go ahead and respond to something that 
really is a friendly aircraft in the area.
    I believe that the Aviation Operations Management Council 
is looking at this issue and should come to some resolution so 
that there is a more efficient system for us. There has been 
FAA transponders that have been put out for our Border Patrol 
aircraft, that operate in the proximity of the border areas, 
that provide the support to our interdiction operations in our 
homeland security mission between the ports of entry.
    But there certainly needs to be coordination for safety and 
also for efficiency.
    Mr. Cox. And Admiral Belz, should a Coast Guard aircraft be 
able to engage in secure communications with an ICE patrol boat 
in the water below?
    Admiral Belz. Certainly, that is an outstanding capability 
we do not have now. With our Deepwater acquisition, as we have 
looked to examine our requirements on that particular major 
acquisition, we are looking at how we are ensuring--you know, 
we have that connectivity among our sister agencies here.
    In many cases, we have that serendipitously. But we do not 
have it as an organized effort.
    And that certainly again was the genesis behind the 
departmentwide initiative to stand up an Aviation Operations 
Management Council. It has been going on now about six months.
    And it is, I think, right about on pace in terms of the 
issues that they are looking at, sir, which is some of the very 
issues that you have raised here today.
    Mr. Cox. And finally, Mr. Blank, to focus on possible 
greater opportunities for jointness between TSA and the Coast 
Guard, on the intelligence side, we have this recent report 
issued by the GAO that found that Coast Guard and TSA may be 
duplicating efforts in collecting intelligence information 
about vessels and cargo. They recommended that we pursue that 
opportunity.
    According to the report, while the Secretary has delegated 
primary responsibility to TSA for the new integrated maritime 
information system, the Coast Guard's efforts in this area are 
more extensive and better funded at the moment. And 
furthermore, the integrated maritime information system is very 
similar to the Coast Guard's Intelligence Information Center 
Coast Watch Program that is already in place and has 
considerable intelligence analysis capabilities.
    Finally, GAO tells us that, to the extent there is 
duplication, there is also an opportunity to create gaps 
because the resources that are focused on duplicated efforts 
are of course not focused on making sure that everything is 
covered. What can we do to prevent either Coast Guard or TSA 
from having these overlaps and to help the Department of 
Homeland Security have a complete intelligence picture to 
detect potential threats?
    Mr. Blank. Mr. Chairman, we recognize what the GAO has 
found. We recognize that the Coast Guard is the lead in 
maritime intelligence. And the tool, the intelligence gathering 
tool that you mentioned, we believe that what we have invested 
in it may have some value applied to other modes of 
transportation. And we are evaluating that at this time.
    But we are no longer using that IMIS tool in the maritime 
sector. We believe that we are probably a significant customer 
for maritime intelligence, in that we need to have it so that 
we can evaluate and analyze what it means across the broader 
transportation sector, what it means at the nexus of various 
other modes.
    So we need it from an analysis perspective. But we have 
recognized that there was overlap and there was a need to have 
efficiencies. And so that IMIS product is no longer going 
forward.
    Mr. Cox. Madam Chairman, my time is expired. I would extend 
to the panel members who have not addressed themselves to any 
aspect of this question--for example, on this last question 
which involved the Coast Guard--if any of you wishes to add the 
other half or the rest of the picture or add more, I think that 
is more than welcome. But otherwise, Madam Chairman, I yield 
back.
    Ms. Granger. Thank you.
    Representative Dicks?
    Mr. Dicks. Thank you. And I appreciate the testimony here 
today. I had a chance--a sneak preview, Madam Chairman--
beforehand with some of the witnesses.
    Mr. Ahern, I want to just ask you again on the record.
    You know I have been concerned about Operation Safe 
Commerce, which will be complete in August of 2004. And I want 
you to say here on the record--give me the same assurances--
that you are going to use the findings of this as effectively 
as you can when your agency takes this responsibility over.
    Can you comment on that?
    Mr. Ahern. Yeah, I would be happy to repeat what I stated 
to you back in the preparation room. Certainly, Operation Safe 
Commerce is very important to the Department of Homeland 
Security. As I mentioned, I am one of the three co-chairs of 
the executive steering committee.
    TSA has the lead for the overseeing of the grants. One of 
the things that clearly we want to do is make sure that beyond 
just the management of the grant, that we get some operation 
utility at the end of the test. We have $58 million invested in 
this program. There are going to be 1,000 to 1,200 containers 
that are actually going to be run through the Operation Safe 
Commerce trade lanes. I believe there are 18 trade lanes 
overall between the three load ports of Los Angeles/Long Beach, 
Seattle/Tacoma, Congressman, and Newark.
    It would make absolutely no sense for the Department of 
Homeland Security to put $58 million out there and not do 
operation and evaluation to be able to take some of this 
technology or the procedures or the secure trade lane 
understandings that we gain from this to employ them. We will 
be doing the evaluation in partnership with--.
    Mr. Dicks. So you do not see any conflict between that and 
Commissioner Bonner when he announced the Smart Box initiative 
request for information on technologies that can improve 
container integrity. There is not going to be duplication here, 
is there?
    Mr. Ahern. I do not believe there is going to be a 
duplication. And I would add, beyond just Safe Commerce, 
Commissioner Bonner's comment about Smart Box and also the 
Container Working Group. I think the department and the Border 
and Transportation Security Directorate is taking an oversight 
role to make sure there is not that redundancy and to make sure 
that there is the appropriate level of coordination as we make 
decisions for standardizing safe and secure trade lines.
    Mr. Dicks. Admiral Belz, where are we on the national 
maritime transportation security plan required by MTSA? When 
will that be out?
    Admiral Belz. The national transportation security plan, 
sir?
    Mr. Dicks. Yeah.
    Admiral Belz. Sir, the effort, in terms of developing that 
plan, is ongoing with a variety of pieces. And we are all 
partners on that together.
    I would have to provide a specific update on that for the 
record, sir.
    The initial timeline for the development of the National Maritime 
Transportation Security Plan (NMTSP) spans two years with development 
of the final plan by the end of CY 2005. The Coast Guard is using an 
inter-agency development team, similar to the approach taken for 
developing MTSA regulations. The initial national plan inter-agency 
coordination meeting was held on February 11, 2004, and regular inter-
agency working group meetings commenced on April 22, 2004.

    Mr. Dicks. All right. I hope the plan is going better. And 
I think it is important that we have an overall strategy.
    One of the concerns that I have--and I wanted to say this 
here for the committee--is how are we going to pay for this? We 
have decided that we would take care of the problems of the 
airports pretty comprehensively. But there is a big question 
mark about who is going to pay for port security.
    And the ports obviously feel that the U.S. government 
should pay for this. I believe that we cannot leave it unfunded 
somehow.
    We were talkings earlier about the lockout on the West 
Coast just for a week. And all of a sudden, the economic 
implications of not being able to get these containers into the 
major ports on the West Coast and then to Chicago and to the 
East Coast.
    And if we do not have a program, if we do not have a funded 
program that is credible, I think this becomes a major concern. 
Now does somebody want to address that? How are we going to pay 
for this?
    Mr. Blank. Well, since TSA administers port security 
grants, I will take a stab, but I know my other colleagues want 
to as well.
    Mr. Dicks. And the only monies come from Congress. The 
Coast Guard, I believe, said there is a $7.5 billion 
requirement; $1.5 billion each year. There is no money in the 
budget for this. And every year, Congress has added the money 
because this is such a gaping hole in our strategy.
    Mr. Blank. There has been over $500 million appropriated. 
You are quite right.
    There is $46 or so million for fiscal year 2005. In fact, 
the Federal Register today carries an announcement of the 
request for proposals with regard to that money.
    Mr. Dicks. I would just point out that the $46 million is 
the first time anything has been requested by the 
administration for port security. Is that not correct? And it 
is not very much when you consider the $7.5 billion that the 
Coast Guard says is required for port security.
    Mr. Blank. I think what we have to recognize, congressman, 
is that port security is clearly a shared responsibility 
between the federal government, the state governments, local 
governments and private businesses.
    Mr. Dicks. But the other people are not stepping up to take 
this responsibility on. They do not have the money either.
    And if nobody funds it, that is what I am worried about. If 
the ports do not do it, if the private sector does not do it 
and if here at the federal level we can only do it minimally 
because it is hard to keep adding money above the President's 
budget request, this is going to be a gaping hole in our 
overall security strategy.
    If one bad container comes in on the West Coast in Los 
Angeles, this thing goes off, you have a major disaster and 
then the people say you cannot bring these containers in, the 
economy in this country is going to be directly threatened. And 
so I do not see how we can just let this go on without coming 
up with some kind of a funding strategy.
    Mr. Blank. We recognize what you are saying. But when I am 
talking about the port security funds that TSA has 
administered, until handing it off to another department, to 
look at the whole resource level, you have to not only consider 
the appropriated funds, but you have to put some total on the 
resources that have come from federal, state, local and 
private. And then you have to look at what is in various parts 
of the Coast Guard and CBP budget and get a whole picture, 
which is considerably more than what has just been put out as 
port security grants.
    Mr. Dicks. What about this? Are the Coast Guard numbers 
solid, Admiral Belz? For port security, we need $1.5 billion 
the first year and I think it is $7.5 billion over the next 5 
years? 10 years?
    Admiral Belz. We stand by those numbers. But I would agree 
with my colleague, Tom Blank, that in many ways, some of the 
benefits of this effort do, indeed-it has to be a shared 
partnership between the private sector and the federal and the 
state government.
    Mr. Dicks. But if it does not get funded, are you concerned 
personally that this is a major problem for us? If nothing 
happens, if it is not picked up at the local level and the 
federal government does not do it, are you concerned that this 
is a major hole in our effort at homeland security?
    Admiral Belz. If we do not get compliance, I would be 
concerned because it is a balanced program. And we are 
requiring that partnership. We think we are laying out the 
standards.
    So far, we are seeing that kind of evidence of compliance. 
So I think over time, we have to continue to educate and push 
for it, do our part and try to get industry to do their part, 
educate, do the initiatives that make smart and efficient 
utilization of federal assets. And then hopefully, we will see 
some benefits accruing by the--.
    Mr. Dicks. Can you make real progress without money?
    Admiral Belz. No, sir. We cannot.
    Mr. Dicks. Thank you. Thank you very much.
    Ms. Granger. Thank you.
    Representative Souder?
    Mr. Souder. I have a number of narcotics questions, which 
will not surprise any of you. The first question I have on the 
container security initiative in Rotterdam. And when we visited 
there, they were not checking for narcotics. And I wondered if 
we have any, in this initiative, any requirement as we set this 
up that there will be a checking for narcotics at Antwerp, at 
Rotterdam and other ports as well, in the free clearance.
    Mr. Ahern. I assume that question is directed to me, 
congressman.
    Mr. Souder. Yes.
    Mr. Ahern. As far as the container security initiative, the 
principal focus of it is to make sure that there is not a 
weapon of mass destruction, explosive device, something that 
could create devastating harm to this country, that could come 
into one of our ports adjacent to a major city and be exploded 
or remotely detonated. That is the principal of CSI.
    As we are targeting, using our targeting systems, and it is 
the same systems we use to target domestically, we are looking 
for anomalies. We are looking for anomalies that would drive us 
for doing our non-intrusive examination using the gamma imaging 
device.
    So as we are then looking for the anomalies inside the 
containers, certainly the principal focus and will continue to 
be the national security examination. But as they identify an 
anomaly, they will continue to pursue that to determine what it 
is.
    And if that happens to be narcotics, that is fantastic. And 
that is something that we then have the ability to start to 
make a good enforcement decision for control delivery to 
continue to explore much earlier in the transportation process, 
versus being able to identify it at the point of discharge here 
in the United States.
    But the principal focus--I do not want to mislead anyone 
here--the principal focus of CSI is for national security 
examinations. But as we are targeting for anomalies, both in 
the systems and the use of the technology, any anomaly could be 
anything. And we pursue that to determine what it is, sir.
    Mr. Souder. So they understand that an anomaly, if it does 
not lead to a weapon of mass destruction, still is to be 
pursued?
    Mr. Ahern. I would say that is true.
    Mr. Souder. And the Dutch understand that as well at 
Rotterdam, which is our biggest port? Because it seemed to be 
in the early stages, sometimes yes, sometimes no, as far as 
willingness to cooperate. But the fact is if something is 
precleared and it is moving in and once it is there, the odds 
of it being checked again are less.
    And as Elijah Cummings, the ranking member on my 
subcommittee, points out, we have 30,000 deaths a year because 
of narcotics versus the possibility of one from terrorism. And 
if we push this offshore, we have to make sure we are checking 
other things as well in that process and the anomalies in the 
purchase orders and bill of lading and so on.
    Mr. Ahern. I would tell you with absolute certainty, if we 
were not comfortable that the examination was done to the level 
of satisfaction by us overseas through the host country nation 
customs authority, we would make that examination upon arrival.
    Mr. Souder. Admiral Belz, we had some concerns early on, as 
we went up to level orange, that boats were being pulled back 
to the harbors because we had a shortage of people to protect 
the maritime security of the United States. Are you to the 
point yet--this somewhat is like the last question--how, if a 
boat is in active drug interdiction in the Caribbean or in the 
Eastern Pacific and San Diego or Houston or New Orleans or 
Miami goes to code orange, does the boat abandon what they are 
doing to be pulled back into port? How do you make those kind 
of decisions?
    Admiral Belz. Sir, we have come a long way since 9/11 with 
regard to how we deal with that particular issue. I think the 
department itself and all of us as partners have in fact 
learned how to apply our resources better together to deal with 
this full array of threats.
    And particularly early on when we were early on looking at 
the situation, we certainly used a different approach regarding 
some operational tactics than we do today. And so over time, 
even through our standup of code orange over several times now, 
we have evolved both our strategy and our tactics in executing 
that.
    So as you will see concurrently, with regard to the drug 
effort, the intelligence there has continued to develop very 
well. I do not want to say we are lucky rather than good, but 
we have seen concurrently some maturation of the effort with 
regard to maritime intelligence, partnering with regard to 
assets, again with colleagues sitting here at the table, 
specifically with ICE and CBP on the land border. And our 
integrated effort, largely working through the joint 
interagency task forces, have allowed us to invest individually 
less and achieve considerably more as a U.S. government.
    So we have two things going on there. We have in fact been 
supported by the Congress. And we have been supported through 
the President's budget in building up the necessary assets more 
in line with dealing with the homeland security issues--or as 
we would call it, waterways and coastal security; less so at 
the expense.
    But at the end of the day, it is an issue of capacity. And 
where we have to put those, oftentimes is a risk analysis of 
where to best place those. But I think you would see it less 
today than you did 2 years ago.
    Mr. Souder. Thank you. I would also ask--for the record, 
because I have one additional question, but this can just be 
for the record, because what you just said also was in a number 
of the testimony, written testimony--would you provide the 
committee with the narcotics drug seizures from the year before 
the creation of the department from March 2002 to February 2003 
and then what we have seized from March 2003 to February 2004; 
basically March to March. There are lots of variables with 
this. But I would like to be able to compare it as much as 
possible and then look for the explanations for any deviation.
    Mr. Stallworth, I had one question for you yet. There has 
been a lot of discussion and in fact today, I have been 
confused on the border. I remain somewhat confused today 
precisely how the air and marine operations are--not to mention 
the land operations--with the border patrol, what is the legacy 
border patrol and legacy customs--and how you are structured.
    Do you believe by putting you in one department that has 
altered your function some, in particular its relationships 
with narcotics and immigration?
    Mr. Stallworth. One thing that it has done, it has altered, 
it has given us the responsibility under Title 8 to handle and 
see the immigration issue, even though we never turned around 
or turned down immigration--illegal immigrations or 
undocumented aliens. We always turn those over to border 
patrol.
    We have exactly the same procedure now, in that we call 
them in to do that because they are the ground force that is in 
place. The integration of our air and marine assets, most of 
that comes through the integration of operations through the 
Air and Marine Operations Center that essentially has 
interagency people there focused on domestic, for the most 
part, and arrival zones.
    Mr. Souder. Can I interrupt you just a second? Did you say 
you have had an increase in your assignments to immigration? 
But you did not have it before? DO you mean you have had a 
reduction in the drug interdiction mission?
    Mr. Stallworth. No, sir. In fact, what we have had?and we 
will provide you the same figures in the same time period you 
just asked for from others. We will provide you that.
    And I think what you will see is with the increased 
emphasis on border sovereignty under U.S. sovereignty has been 
an increase in all types of interdictions.
    Immigrations or undocumented alien numbers have gone up. 
And drug interdiction numbers have gone up, both from our 
arrival zone or U.S. arrival zone and from our activities 
outside of the U.S.
    Mr. Souder. Thank you.
    Ms. Granger. Representative DeFazio?
    Mr. DeFazio. Thank you, Madam Chair.
    A question to the Coast Guard about the automatic 
identification system. I have been an advocate of this for some 
time, essentially having a way of tracking vessels approaching 
U.S. ports and critical areas. But my understanding is, 
although we have a mandate in place now that we are going to 
have AIS on all vessels over 65 feet by December 31, that it 
will be transmitting data into many of our ports, that half of 
our ports will not have a capability of receiving those signals 
and actually tracking those, except at the ports where we have 
the system that is called VTS.

 
------------------------------------------------------------------------
                                                             Marijuana
                 Period                   Cocaine Seized     Seized in
                                             in Pounds        Pounds
------------------------------------------------------------------------
March 2002-Feb 2003.....................          95,507          30,447
------------------------------------------------------------------------
March 2003-Feb 2004.....................         174,107          20,456
------------------------------------------------------------------------


    Can you comment on that and explain to me how we are going 
to better utilize that information? Because I think it is key 
that we be able to constantly track vessels of any size and be 
able to use that data.
    Admiral Belz. Certainly, the VAIS system, when fully 
mature, will be able to provide us additional information 
beyond the ports that we now have targeted--you know, the VTS 
ports. But over time, that is just one piece of the puzzle.
    There are other capabilities that, until we can build out 
the fully built out system, we will be able to use other 
sources of information.
    There is no silver bullet with regard to any of these 
particular pieces of intelligence or monitoring data that 
alone, given the classes they apply to, given the state of the 
international agreements and cooperation, given the state of 
the implementation of other monitoring systems, that is the 
entire point, sir, of the intelligence fusion that we bring 
together.
    So we have opportunities with partnering about sailing 
dates, notice of arrivals, maritime surveillance, other assets, 
even outside our own department, that bring together a 
comprehensive picture of what is actually out there moving.
    At the end of the day, we will continue to improve that 
system.
    Mr. DeFazio. What is the timeline we are looking at where 
we will be able to utilize the data that will be available off 
of these vessels in all our major ports, other than the VTS? Do 
we have a plan if we have some money? Are we building out the 
system?
    Admiral Belz. We are working on a plan. And we are building 
a plan; again, looking at constraints and needs, with regard 
to--.
    Mr. DeFazio. Meaning not having the funds to go forward.
    Admiral Belz. Well, sir, there are many aspects to doling 
out a secure safety regime. And I think our approach--again, 
working within our department--has been to try to build out a 
system consistent with growth and overlap so that we do not, as 
has already been pointed out, leave some glaring gaps in some 
areas while we entirely focus on building out a system 
somewhere else that, in some cases, maybe does make the best 
business case for ourselves.
    So we think we are putting forth a balanced effort, taking 
into account things that were in play already and things that 
make sense within regards to support of both the international 
community and ourselves, sir.
    Mr. DeFazio. You mentioned the documentation of the 
vessels, of foreign vessels in particular. I am not quite 
certain where we are at in terms of piercing the veil of 
obscure ownership.
    Right now, Osama bin Laden could own quite a few 
freighters. We would not know it because of the way the 
international maritime industry is structured and the way we 
allow it to go forward. Have we successfully negotiated a 
change so we are going to actually know who owns these ships as 
opposed to the post office box of some lawyer somewhere?
    Admiral Belz. Well, sir, again, as you know, with regard to 
foreign vessels arriving in our port, we are relying on 
international cooperation. We have worked hard there for 2 or 3 
years to gain that cooperation.
    It is certainly necessary that we use this approach for the 
larger body of commerce moving through. Most of the folks out 
there are trying to be engaged in legitimate business.
    Mr. DeFazio. Right. But the bottom line is we still have 
not really pierced that veil of ownership.
    Admiral Belz. Well, sir, I would not say that the veil has 
not been pierced. We may not have it fully down. But I think we 
are making good progress with regard to information sharing.
    Mr. DeFazio. Well, I hope the Coast Guard will, as our 
representative to the IMO, continue to push most aggressively 
on that issue.
    To Mr. Blank, on the Customs-Trade Partnership Against 
Terrorism, I just wanted to follow up on the questions that I 
believe the ranking member was asking, which is we have 6,200 
companies out there that want to get validated, is that right?
    Mr. Blank. That is not TSA.
    Mr. DeFazio. Oh, I am sorry. Okay. Right, okay. I am 
confused. So there are 6,200 out there?
    Mr. Ahern. There are 6,200 C-TPAT participants at this 
point.
    Mr. DeFazio. Okay. So are we extending privileges to those 
who have not yet been verified at this point in time, since we 
have only verified somewhere around five percent of them?
    Mr. Ahern. 3,100 get some level of privilege.
    Mr. DeFazio. Without having been formally inspected?
    Mr. Ahern. They have formally submitted a security 
assessment, which we have reviewed in great detail. But we have 
not gone and done the validations.
    Mr. DeFazio. Right. They have given you a paperwork plan. 
And you have not been on the ground to validate whether or not 
they have actually implemented it. But it looks good on paper.
    Do they all look kind of alike, like some consultant 
provided them?
    Mr. Ahern. No, we have not seen that.
    Mr. DeFazio. Okay. All right.
    And again, following up on the ranking member's question, 
it is not clear what the date objective is to have physically 
inspected all 6,200. What date do we have in mind? By when will 
we have inspected all of them--got the plan, looked at the 
plan, gone out and verified the plan is in place and then also 
be doing some sort of periodic follow up?
    Mr. Ahern. As I stated, the answer is the same at this 
point. We will have to go ahead and factor it out what the plan 
will be once we get all 157 on board for the validations, how 
long would it take us to get the universe of 6,200 
participants.
    Mr. DeFazio. So you are hiring 157 people. Where are you in 
that process?
    Mr. Ahern. Forty-one on board.
    Mr. DeFazio. Okay. Are all the others chosen and just 
undergoing screening? You have the budget and we are well into 
the budget year. Where are we at?
    Mr. Ahern. We are very aggressively moving forward with 
bringing the others on board. We want to make certain also that 
as we bring them on that we have the plan rolled out to do the 
validations and not just move to an aggressive move just to get 
them on board. We want to make sure that we have the plan to 
roll them out to do the validations in a very efficient way.
    Mr. DeFazio. It is really critical that we are assured that 
these are legitimate chain of custody situations with very 
little opportunity for anything being interjected into the 
system if we are going to essentially lower the probability 
that they will undergo inspection.
    I am just concerned at this point that some are operating 
without even having had their paperwork verified. And I do not 
know what led us to that conclusion.
    But that causes me some concern. Perhaps maybe outside of 
the public session, you could tell me why that is and what 
assessments we have that just having the paperwork on those is 
adequate to allow them to know that it is less likely that they 
will be inspected.
    Mr. Ahern. I would be happy to even answer that in the open 
session, sir.
    Mr. DeFazio. If you can answer quickly because my time is 
expired here.
    Mr. Ahern. I think one of the things that is very critical, 
beyond just the security assessments that were submitted, they 
went through all the law enforcement agencies we checked for 
their histories. We also looked at their compliance history for 
their importation record that they had over a number of years 
with Customs.
    So we made a lot of various determinations. We also had a 
regulatory audit division that goes out and looks at their 
corporate records as well, that is part of more of the 
regulatory aspects and the financial aspects of the company for 
commercial purposes.
    So we took the totality of all those factors, as well as 
now overlaying our layered enforcement systems with our 
targeting. They still go through the same national targeting 
system. They still can be subject to the enforcement screens 
that we do, the non-intrusive gamma imaging technology as well. 
And there still is a random factor to make sure that we are not 
fooled by some of the assumptions we make with these companies 
we put into these trusted carrier programs.
    Mr. DeFazio. Okay, thank you. Thank you, Madam Chair.
    Ms. Granger. Thank you. The chair now recognizes 
Representative Slaughter.
    Ms. Slaughter. How are we doing? All right, there we are.
    Thank you, Madam Chairman. And I want to thank you 
gentlemen for coming today. I know it is terribly important for 
us to be able to hear from you. And I know that things are 
going so slowly at the agency and you need to be there. So we 
are very appreciative of your time.
    I do have a question I would like to ask for Mr. Blank. 
This is something that has been brought up to me, Mr. Blank, 
about the TWIC card. I know that there are two pilot projects 
going on--one in Los Angeles and one in Philadelphia.
    Understanding how you can evaluate how the programs are 
going to go, but unfortunately, TSA has not taken any steps to 
begin the background process. And that is going to be required 
before you can issue any cards to any individual or even to 
develop a distribution plan.
    Ports are worried about the pace of the program because 
their concern is it could be a conflict with the Coast Guard 
port security regulations that require access control for 
personnel. The ports do not want to spend thousands of dollars 
on a TWIC card only to find it is in conflict with what the 
Coast Guard does.
    Could you give us some comfort on that?
    Mr. Blank. We will be fully partnered with the Coast Guard 
going forward. It is certainly not our intention to drive the 
port authorities or other stakeholders at the ports to any 
unnecessary expenditures.
    For instance, as we envision the TWIC card, we have 
completed our technology evaluation phase. We do have one of 
the technologies that we think performed very well and is well 
suited to access control.
    But port authorities and others out there have invested in 
some other technologies. And we are going to make sure that the 
TWIC card accommodates those. So you may have a TWIC card that 
will accommodate investments that have already been made.
    And so we recognize that we have an obligation to not waste 
people's money and investment. And we recognize that we have an 
obligation to partner with the Coast Guard so that their 
efforts mesh nicely with ours, not only in the area that you 
mentioned in the port, but also with the Coast Guard's 
responsibility for merchant seamen IDs as well.
    Ms. Slaughter. Do you have any dates? Certainly, you are 
going to begin background checks. Do you have some idea when 
your cards are going to be issued?
    Mr. Blank. AT this point, our primary focus is getting into 
this prototype phase where we are going to make the system 
work. We have to make some determinations yet as to what the 
disqualifying crimes might be or the disqualifying background 
information might be.
    So we will have to go through a process to make that 
determination. We will have to make that public and take 
comment on it.
    But in terms of an overall system to do background checks, 
while we will have to work on that, it is something that TSA is 
gaining experience with almost every day, whether it is the 
hazmat truckers that we are getting to work on and people in 
the aviation industry.
    So it is not a new process.
    Ms. Slaughter. I understand. It is just taking an 
inordinately long time. And people are concerned.
    Admiral Belz, I have a couple of questions for you, if I 
may. I have been very much interested. I represent Niagara 
Falls. And we are very concerned there about the falls and 
national security.
    We started talking to the Coast Guard in 2003, I believe, 
about the feasibility of stationing Coast Guard HH-65A Dolphin 
Helicopters there in the Niagara Falls region. As you know, 
Governor Pataki is very interested in this. He has put money in 
the budget to provide a facility for the Coast Guard.
    And many of my colleagues and I have written to you 
recently asking where we are with that, hoping that we have 
made a good enough case because it is very important to us. And 
we have not yet heard from you. I have a copy of the letter if 
you would like to see it. If you do not have it, I can give you 
one.
    Can you give me the status of that request?
    Admiral Belz. Ma'am, I have not specifically seen the 
letter. But I am aware of it. And I know that we also share 
your concern about the ability to place aviation assets 
throughout the country.
[GRAPHIC] [TIFF OMITTED] 23465.002

[GRAPHIC] [TIFF OMITTED] 23465.003

    So we have looked at that. And I think our approach has 
been generally to try to deploy assets there on a temporary 
basis. And we certainly do that with regard to specific 
intelligence.
    Ms. Slaughter. We have had them on a temporary basis. We 
believe though that this is an important enough area of the 
country--a very busy entry port across to Canada--that we think 
that they should be there permanently, which is what our 
request is and why New York State is so interested in helping.
    Admiral Belz. Yes, ma'am.
    Ms. Slaughter. What can you tell me about that request?
    Admiral Belz. I can tell you that we are looking at it. We 
are looking at it, as we do in all manner of resource requests, 
it is a matter of balancing those requests, balancing those 
sources, understanding the risks, looking at some options, what 
really makes the most sense.
    And I expect that we will provide an answer that will, at 
the correct time, assessing the risk with regard to the plan to 
continue to deploy on a temporary basis, I think is based on 
everything we can gather. And it is a difficult decision.
    It is a difficult decision to deal with concerns of the 
Congress with regard to this issue because it is a significant 
issue. There is no question that we have had assets over there 
for a variety of reasons, beyond security.
    Ms. Slaughter. Well, the security is critically important. 
Without a threat assessment yet, to this day, it is very 
difficult to really concentrate on the parts of the country 
that obviously are pressure points.
    And I think there is no question that that is one. So we 
would very much like to have that answer.
    And I wonder, Madam Chairman, if you would hold the record 
open so we can get that response for me?

    The Coast Guard has carefully assessed our aviation needs 
throughout the Great Lakes. In doing so, we considered organic Coast 
Guard surface and air forces and other public and even international 
partners. We have preliminarily determined that temporarily deploying 
to the Niagara region is sufficient in meeting projected mission 
requirements. I certainly appreciate the offer of State assistance to 
fund the construction of a hangar for a Coast Guard Air Facility. 
However, the cost for Coast Guard aircraft and personnel needed to 
support a permanent presence exceeds currently available Coast Guard 
funding. We are confident that ``on demand'' and as necessary 
deployments from regional Coast Guard air stations will continue to 
meet our mission needs.

    Ms. Granger. Yes, I will.
    Ms. Slaughter. Thank you very much. Thank you, admiral. I 
look forward to a response that is favorable to that district.
    Thank you very much.
    Admiral Belz. Thank you for the question.
    Ms. Granger. Representative Sanchez?
    Ms. Sanchez. Thank you, Madam Chairman.
    Again, gentlemen, I am sorry for having left. I have 
several markups going on right now. And I hope that I am not 
reiterating questions that somebody may have asked in my 
absence.
    I am interested in the fact that the TSA is the lead agency 
for the restoration of the maritime transportation system in 
the aftermath of a security incident at a port. The MTSA 
requires, as part of a national maritime transportation 
security plan, a plan to reestablish the flow of cargo.
    When will DHS have a cargo contingency plan to ensure that 
cargo flow will be established quickly in the event a port 
suffers a terrorist attack, minimizing the economic damage? And 
I know that you have had some efforts with an outreach program 
to the private sector called Operation Restore. Can you tell me 
what that effort is about and where you are with that?
    And I guess I also have the question: why was TSA 
designated the lead to do this task? And what role and what is 
the coordination going on with respect to the Coast Guard and 
the port on this issue of reestablishment of cargo lines once 
there has been an incident?
    Mr. Blank. I will begin and then I think Admiral Belz will 
have some comment.
    If you look at TSA's role in this maritime sector, whether 
it is domain awareness, prevent, protect and so forth and 
restore, our responsibilities tend to be in development of 
plans, development of concepts of operations, looking at 
methods of conducting a certain thing, as opposed to being 
operational. These gentlemen's agencies are pretty much the 
operational element.
    And a great deal of what you are talking about here is 
planning how to get the cargo lines established again. If a 
piece of critical infrastructure is not available for whatever 
reason, how do you reroute around that?
    What is the plan? Where do you go? What will it take? What 
is required?
    So those kinds of things are falling into TSA's realm of 
responsibility. But in terms of implementing that, we would be 
most likely looking at these gentlemen's agencies to do that.
    But whether it is the Sector Specific Plan under the 
Homeland Security Presidential Directive 7 that will integrate 
the national maritime security plan, along with all the other 
modal plans; whether it is a national response plan, it will 
also become a part of that. Oftentimes, the subject matter and 
the content of the plans will come from these gentlemen's 
agencies and we will coordinate and put that together.
    But I think that is the rationale for why you see TSA 
designated as the lead there.
    Ms. Sanchez. Okay. That is a good answer to one of the 
parts. But then the question is: where are you along with 
having actual plans for ports to reinstate the flow of cargo?
    Mr. Blank. Every port is probably in a different state of 
play. We are in the process of working as quickly as we can on 
criticality assessments, doing the vulnerability assessments 
with our partners, particularly at the Coast Guard, and 
identifying what mitigation needs to be made on a port-by-port 
basis.
    But I cannot really characterize, as a whole.
    Ms. Sanchez. Do you have any information with respect, for 
example, Los Angeles/Long Beach, the largest port, the most 
important port to our nation, which is 15 minutes away from 
where I live?
    Mr. Blank. I would have to get you that, congresswoman.
    Ms. Sanchez. What about the issue with respect to Operation 
Restore?
    Mr. Blank. That one I am going to have to defer to my 
colleagues, I believe.
    Admiral Belz. I would have to provide that for the record. 
I would like to make comment though with regard to facilitating 
the return of commerce.
    Ms. Sanchez. I would not expect that you would comment on 
Operation Restore because that is a TSA program.
    Admiral Belz. Right.
    Ms. Sanchez. Not a Coast Guard program. But that is okay.
    Mr. Blank. I would have to get you information for the 
record, congresswoman.
    Ms. Sanchez. Okay. I see that my time is up. I will submit 
the rest of my questions for the record. They are pretty 
complicated.
    Mr. Camp. [Presiding.] All right. Mr. Markey may inquire.
    Mr. Markey. Last month when Richard Clarke's new book came 
out, many in Boston were startled by a passage that appeared on 
page 15 of the book that discussed Clarke's fears that since 
terrorists had previously stowed away on LNG tankers entering 
the Port of Boston, that such LNG tankers could be targeted by 
Al-Qa`ida on September 11.
    Since then, I have received a letter from DHS confirming 
that individuals with terrorist affiliations came into the 
country on LNG tankers or other Algerian flag ships. Both the 
Coast Guard and the FBI have since provided me with classified 
briefings on this matter.
    While I cannot discuss the details of those briefings here, 
the FBI has said publicly that they had no evidence to support 
what DHS told me in the letter, in terms of their terrorist 
affiliations before they arrived in America. I can also say 
that there appears to be some significant discrepancies in the 
information and with DHS', the Coast Guard's and the FBI's 
assessment of the information.
    Is there anything you can do here today to help clear up 
the confusion that this produces for people in Boston who read 
that the DHS says one thing and the FBI says another?
    In other words, do you believe that Abdelghani Meskini and 
the other terrorists or those affiliated with terrorists who 
came off the boats in Boston were terrorists before they got to 
America? Or did they only become terrorists after they came to 
America? Could you tell us your conclusion on that subject?
    Admiral Belz. Good afternoon, sir. I believe we have 
provided essentially some of that information. I know it was an 
extensive briefing yesterday.
    And without going into classified sources, it is our view 
that the latter was true, that this was an economic issue. We 
saw some evidence of direction and movement afterwards. But 
there was nothing specifically before.
    And the reason I think some of this information continues 
to be developed in one case and not the other is because we are 
looking at the characteristic of building an intelligence 
baseline on populations in general, as opposed to a specific 
intelligence or investigation that may have an entirely 
different purpose at the time, with the time sequencing 
involved in that.
    Mr. Markey. When that large a number of people all 
subsequently are identified as part of one plot, that perhaps 
it is more than coincidence than they did arrive with that in 
mind and with a plan to execute, rather than all being 
recruited individually after they got here, given the fact that 
they all came in on the same tankers, although at different 
times?
    Admiral Belz. Well, sir, I can almost, without getting into 
the specifics of this case, I can just say that you find a 
convenient methodology to do something. And oftentimes, in 
almost any venue you talk about, you use that until something 
happens about it.
    And I think as focus has been drawn to those particular 
conveyances, we have seen a lot of change with regard to LNG 
flow into Boston.
    Mr. Markey. I just mean from a statistical probability 
perspective, do you think it is likely, Admiral, that that many 
people getting randomly off tankers in Boston at an LNG 
facility would then all subsequently wind up being linked to 
the millennium bombing plot at LAX?
    Admiral Belz. I really had not had a chance to consider 
that. I would say that, again, we have to take a look at the 
broader perspective of the transits in and out of the port and 
the entire population and then maybe read some kind of a 
statistical analysis from that.
    Mr. Markey. Director Stallworth and Admiral Belz, as you 
know, we have recently learned that Abdelghani Meskini, a 
terrorist arrested for his role in the millennium bombing, got 
to the U.S. by stowing away on the Algerian LNG tanker that was 
bringing LNG into my district in Everett, Massachusetts.
    Another millennium bombing terrorist, Abdel Hakim Tizegha, 
also reportedly entered the country by stowing away on an 
Algerian flag ship. Over the past few days, I have had 
classified briefings with both the FBI and the Coast Guard. And 
there remain some answered questions.
    While DistriGas has stopped using Algerian LNG because it 
was able to get a better deal on gas shipped from Trinidad, it 
turns out that numerous other Algerian flag ships entered the 
country in the past 5 years. Earlier today, the Coast Guard 
informed me that seven different Algerian vessels have called 
34 times at 10 different U.S. ports.
    We know from press reports that Abdelghani was arrested in 
1999 and soon began cooperating with law enforcement 
authorities and presumably told them that he had gotten into 
the country on an Algerian LNG tanker. At what point were you 
made aware that Algerian LNG tankers or other vessels might be 
exploited by terrorists or non-terrorist stowaways trying to 
enter the country?
    Admiral Belz. Sir, you actually have better information 
than I have for this hearing. And I would have to find the 
specific date on that for the record.

    In 1995, the Coast Guard first became aware of suspected 
involvement in illicit non-terrorist activities (drug and alien 
smuggling) aboard LNG tankers through Immigration Naturalization 
Service (INS) and Customs (USCS) officials. Prior to September 11, 
2001, appropriate steps were taken to ensure the safety and security of 
LNG tankers during transit and operations into U.S. ports. This 
included joint boardings with INS and USCS in response to law 
enforcement information about drug and alien smuggling.
    After September 11, 2001, the Coast Guard refocused its efforts on 
potential terrorism vulnerabilities and immediate steps were taken to 
expand the required notification of arrival to 96 hours, to centralize 
notification and analysis of information, and to require submission of 
crew and passenger information. LNG tankers were provided security 
escort by Coast Guard vessels to enforce a safety zone around the 
tanker during transit into and out of U. S. ports. Also, under a larger 
security apparatus that was established, all LNG tankers were subjected 
to increased pre-arrival vetting and security measures.
    If derogatory information is discovered during the vetting process, 
notifications are made to appropriate Department of Homeland Security 
(DHS) and interested law enforcement entities for appropriate action. 
This effort has detected and provided advance warning about numerous 
arriving crewmembers and other individuals identified in federal law 
enforcement and immigration databases as criminal or security concerns. 
In addition, several individuals wanted for questioning by federal 
agencies about possible extremist associations have been identified in 
advance notice of arrival and referred to the relevant agency for 
investigation, but none have had direct links to terrorism.

    Mr. Markey. What steps did you take to ensure that the
    Algerian LNG tankers and other Algerian flag ships were 
searched prior to docking to ensure that no other stowaways 
were able to get into the U.S. using that route?
    Admiral Belz. Sir, which timeframe are we speaking about, 
sir?
    Mr. Markey. After you were notified that Meskini or that 
terrorists were using--or potential terrorists were using--that 
as an avenue?
    Admiral Belz. Sir, again, without the specific date in 
front of me, as we have become aware of those specific events, 
not just characteristic of those specific tankers, but the 
targeting matrix that we have done since post-9/11 at the ITC 
and the National Maritime Intelligence Center sets up a matrix 
that includes a variety of things, specifically how many of 
those have called on ports with regard to that. That matrix 
alone, that would characterize it for a variety of different 
tools in boarding.
    And I would have to answer specifically with each case with 
regard to that. It would be a standard protocol.
    We work against a risk-driven matrix against that, but that 
would be a heavy driver that would have suggested close 
scrutiny and attention, not only by the Coast Guard, but with 
our partners seated actually here at the table. As the Coast 
Guard boards these vessels and gains control of them--because 
in some cases, you do not know if the issue is stowaways and 
moving people into the port or whether the issue becomes one of 
taking that tanker and making it a weapon of mass destruction.
    So we have a variety of mechanisms that we will put in 
place with that. But I just do not happen to have the details 
in front of me.
    Mr. Markey. I understand. Thank you, Mr. Chairman.
    Mr. Camp. The gentleman's time has expired. I have just a 
couple of questions.
    The past couple of weeks, we have spent a lot of time in 
the subcommittee looking at the whole area of the ISAC--the 
information sharing and analysis centers. It is really a model 
for public-private partnership. And the maritime sector does 
not have an ISAC.
    My question is: would the development of an ISAC help 
communication and coordination between the private sector and 
the agency? And if so, which should be the lead federal agency 
for the ISAC? And I would just like to get your thoughts on 
that.
    Admiral Belz. You want to start off?
    Mr. Blank. We think ISACs are very valuable. We do not have 
a real opinion as to who should be in the lead. But in this 
sector, DHS acknowledges that Coast Guard is in the lead.
    TSA's overriding concern is that the information that an 
ISAC would produce be readily available to the surface ISAC 
that we operate out of the Transportation Security Coordination 
Center so that we have the opportunity to look at the 
intermodal aspects of the analysis that that would produce. At 
the current state of play with the Coast Guard in the lead for 
the maritime sector, I would think that it is entirely possible 
that the responsibility might go in that direction.
    Mr. Camp. Do you think there is any confusion about who the 
lead agency is in maritime, within DHS, for maritime and port 
security?
    Mr. Blank. I think that there is a full understanding 
inside DHS that Coast Guard is in the lead for maritime and 
port security.
    Mr. Camp. I was thinking within the private sector.
    Mr. Blank. I cannot really say. It is certainly possible 
that there is. But you have to understand that, DHS being 
barely a year old, consolidating 22 agencies, that there is a 
lot of anxiety and concern as to how we get ourselves 
organized, stand up, figure out our relationships.
    But I do not think that any confusion out in the private 
sector has had any detrimental effects up to this point. And it 
is a priority for us to get those lines of communication open. 
And certainly you are correct in suggesting that ISACs are a 
good way to do that.
    Mr. Camp. Anyone else wish to comment on that point?
    Mr. Ahern. I think one of the things that is very important 
is that we define the roles. I think it starts with a lot of 
coordination at the department level. We have information 
analysis infrastructure protection that begins the process for 
us and as we now take it down to field levels.
    I think as we look at what the roles of Coast Guard are in 
Customs and Border Protection, there is a strong linkage, 
certainly with Coast Guard getting the vessel information 96 
hours out. That is run through their intelligence center.
    There is then a sorting process where we link with them if 
there is any concerns relative to the container traffic or the 
crew on board that are manifested. We then run that through our 
systems and collaborate with them and determine what joint 
operations plans need to be made when these vessels come on 
board--excuse me, come to ports of entry around this country.
    I think it has come together in a very integrated fashion. 
I think it is one that we need to continue to work on. But I 
believe we are on the right track for having a well-integrated 
intelligence fusion process.
    Admiral Belz. Sir, I would like to just close with that. I 
think it is evolving. I think there is wide recognition of the 
role that each of us plays. And the Coast Guard has been 
oftentimes, working through our department, providing some of 
that very much detailed information, sharing information 
through our routine contacts in the maritime industry.
    So I think it has evolved nicely, particularly over the 
heightened security period that we have exercised really since 
the stand up of the department.
    Mr. Camp. Before we break for these votes and conclude the 
hearing, I have one last question. I do want to compliment you 
and applaud the efforts on the recent events in Haiti and the 
interagency coordination that went on there. I think that sort 
of task force was a success.
    And I wondered if that was a model that you were looking at 
applying in other situations? And I think particularly the 
integration of the various agencies that you discussed earlier, 
if there is any comment on that particular point?
    Admiral Belz. I will start off with a comment and I think 
others may wish to contribute. But I think that particular 
effort was well articulated in terms of division by the 
Secretary. And I think in this particular case, with the kind 
of issues we were facing, that I think his choice of how it was 
organized and the competencies that we brought together and 
given the environment and the kinds of things that we did, the 
Coast Guard was in the lead of that, with strong support inside 
CBP. The deputy for the Coast Guard director down there, task 
force director, was in fact a border patrol officer, very well 
integrated.
    I think it is a good model. And I think the lead that 
follows will be changing depending on the circumstances.
    Mr. Camp. Thank you. And I would like to recognize Ms. 
Jackson-Lee for her questioning.
    Ms. Jackson-Lee. Thank you very much, Mr. Chairman. I am 
here because I think of the committees that are in this House, 
this committee has one of the more important duties and 
responsibilities.
    I would almost compare it to the idea of the metaphor, 
``While Rome burns, there are those who are playing music.'' 
And this is not condescending to suggest that America is not 
concerned about homeland security. But by the very nature of 
our community, the free democracy, most Americans are going 
about their daily work while not having the full responsibility 
of other things that you gentlemen have and that this Congress 
and this particular committee has.
    So I am sorry that I did not hear the fullness of your 
testimony. I was in a meeting with the secretary of state. But 
my questions still are pointed on the comprehensiveness of what 
I believe your challenge is and where you are in completing it.
    Coming from a community that houses one of the larger 
ports--the Port of Houston--and also coming from the Gulf 
Region, we are used to the vulnerabilities of water, if you 
will. Even the Port of Houston, which is a civilian port, is I 
believe vulnerable as to ingress and egress.
    It is a man-made port that then leads into the Gulf. There 
are many other waterways that you are familiar with, whether it 
is New Orleans or whether it is the Pacific Coast, whether it 
is the port in New York; there are enormous vulnerabilities.
    I just heard my colleague speak about the Algerian tanker. 
And as I have met with the international community, I have 
called repeatedly, as a member of this committee, for what I 
call an international homeland security strategy.
    Because as I listened to some of your answers, I was 
concerned that we may be operating in a vacuum. Even though you 
have suggested a number of agreements--and I am talking to all 
four of you?and I know that the Coast Guard certainly has its 
international military relationships and I appreciate that.
    But when we talk about 6,200--I believe these are either 
6,200 vessels or 6,200 different ports--looking for 
verification. What is the 6,200 number again?
    Mr. Ahern. The 6,200 are participants in the Customs-Trade 
Partnership Against Terrorism.
    Ms. Jackson-Lee. Right. And that is international.
    Mr. Ahern. They are domestic companies as well as 
international companies.
    Ms. Jackson-Lee. And 3,100, as I understand, with paperwork 
and five percent that have been verified. In any event, it 
gives you the dauntingness of the challenge. The USS Cole gives 
us the dauntingness of the challenge.
    So my question is--and I would like all of you to take a 
brief moment to answer it--what is the focus of having an 
international homeland security strategy on the issues you deal 
with, particularly with other ports? You do not have to go into 
the 6,200. I understand that. But let me leave that aside.
    But particularly with the law enforcement aspects, the 
knowledge of what is going on at other ports as they depart and 
make departures into the United States, how comfortable are we 
that we have our hands around the magnificence or the magnitude 
of the problem?
    Admiral why don't you start and then we will just go 
quickly to the others?
    Admiral Belz. Ma'am, I think you have exactly hit on the 
kind of a strategy that all of us have embarked on in terms of 
outreach with regard to the international to deal with this 
issue. I think that the standards that the Coast
    Guard has attempted to and has, in fact, successfully 
implemented at IMO in trying to both lead by example and to 
negotiate what are perceived to be reasonable approaches to 
achieving the degree of security that we require on both 
vessels and with regard to the crew and the assessments of the 
foreign ports themselves, is actually a cooperative effort.
    We have sought deliberately over the last 3 years to bring 
forth the kinds of initiatives that are being understood in the 
water community. And we have, in fact, been able to 
successfully steer a development of an international ship code 
that we will start to in fact enforce on our foreign carriers 
coming into this port starting this upcoming month.
    Ms. Jackson-Lee. Thank you.
    Mr. Ahern?
    Mr. Ahern. I think certainly it does start internationally. 
And we refer to a delayed approach. It does start overseas 
internationally. And we are partnering with the Coast Guard, 
with the international port security program.
    I think it is also very important to note just on April 22, 
Secretary Ridge signed an agreement with the European Union on 
a rapid expansion of the container security initiative program 
overseas to make sure that we do pick up the pace to get 
additional countries within the EU as part of the container 
security initiative program.
    We have 18 operational ports. We want to get up to 35 by 
the end of the year.
    We also need to make sure that the foreign manufacturers 
are doing their part to make sure that the supply chain is 
secure and it has integrity. So it begins there as well.
    Mr. Camp. I want to thank the gentleman for his testimony. 
The gentlewoman's time is expired. And I want to thank the 
witnesses for all of their testimony today.
    And the Subcommittee on Infrastructure and Border Security 
is adjourned.
    [Whereupon, at 4:32 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
